<html>
<title> - NEEDS OF AMERICA'S FIREFIGHTERS</title>
<body><pre>[Senate Hearing 107-915]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-915
 
                    NEEDS OF AMERICA'S FIREFIGHTERS
=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                    FEBRUARY 5, 2002--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______







                       U. S. GOVERNMENT PRINTING OFFICE
86-401                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                      COMMITTEE ON APPROPRIATIONS


                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

           Subcommittee on VA, HUD, and Independent Agencies

                BARBARA A. MIKULSKI, Maryland, Chairman
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     CONRAD BURNS, Montana
ROBERT C. BYRD, West Virginia        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 LARRY CRAIG, Idaho
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
ERNEST F. HOLLINGS, South Carolina   MIKE DeWINE, Ohio
                                     TED STEVENS, Alaska (ex officio)

                           Professional Staff

                             Paul Carliner
                           Gabriel A. Batkin
                              Alexa Sewell
                         Jon Kamarck (Minority)
                          Cheh Kim (Minority)




                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Senator Barbara A. Mikulski.................     1
Statement of Senator Christopher S. Bond.........................     3
Prepared statement of Senator Christopher S. Bond................     4
Statement of Peter Morris, Assistant Chief, Bethesda-Chevy Chase 
  Rescue Squad...................................................     7
    Prepared statement...........................................     9
Statement of Stephen D. Paulsell, Chief, Boone County Fire 
  Protection District and Sponsoring Agency Chief, Missouri Task 
  Force 1........................................................    11
    Prepared statement...........................................    15
Task force equipment caches......................................    17
Weapons of mass destruction protection for task forces...........    17
Properly fund annual grant program for task forces...............    17
Task force transportation........................................    18
Task force system expansion......................................    18
International response of additional task forces.................    18
Task force system enhancements...................................    19
Program administration and support...............................    19
Supporting documentation.........................................    20
National Urban Search and Rescue Response System.................    20
About US&R.......................................................    20
Incident Support Team............................................    20
FEMA task force tools and equipment..............................    20
Urban search and rescue: Commonly asked questions................    22
Statement of Carlos Olaguer, Firefighter, Baltimore City Fire 
  Department.....................................................    24
    Prepared statement...........................................    28
Urban search and rescue..........................................    31
Task forces......................................................    34
Urban search and rescue..........................................    35
Utilization of assets............................................    36
Prepared statement of Senator Larry Craig........................    37
National Interagency Fire Center.................................    37
Statement of Harold Schaitberger, General President, 
  International Association of Fire Fighters.....................    40
    Prepared statement...........................................    43
Existing programs................................................    44
The needs........................................................    44
Statement of John M. Buckman, III, Chief, International 
  Association of Fire Chiefs.....................................    48
    Prepared statement...........................................    51
Assistance to firefighters grant program.........................    52
Additional firefighter staffing..................................    52
Office of National Preparedness..................................    53
USAR expansion...................................................    53
Federal leadership...............................................    54
Statement of Philip C. Stittleburg, Chairman, National Volunteer 
  Fire Council...................................................    54
    Prepared statement...........................................    57
Support of basic firefighting equipment..........................    60
Response to terrorist attacks....................................    61
Liability of donated fire equipment..............................    61
Fire grant program...............................................    62
Fund raising efforts of local fire departments...................    63


                    NEEDS OF AMERICA'S FIREFIGHTERS

                              ----------                              


                       TUESDAY, FEBRUARY 5, 2002

                           U.S. Senate,    
                   Subcommittee on VA, HUD, and    
                              Independent Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:50 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Bond, and Craig.

                       NONDEPARTMENTAL WITNESSES


            opening statement of senator barbara a. mikulski


    Senator Mikulski. The Subcommittee on VA-HUD will now come 
to order.
    Today is a very special hearing because it will focus on 
the need of America's fire departments and firefighters. What 
we want to be able to do today is to find out how we can 
protect our communities and how we can protect our first 
responders.
    Since September 11, all eyes have focused on the heroic 
efforts of America's firefighters, whether it was in New York 
or at the Pentagon. I know, though, that every day there are 
firefighters out there putting themselves truly, literally in 
the line of fire. We want to be able to thank you not with 
words but with deeds, to really hear from those who are the 
leadership of America's firefighters, as well as the 
firefighters themselves, about how we can meet the compelling 
needs of homeland security.
    We are now asking America's fire departments, whose primary 
focus has been the protection of local communities, the 
prevention of fires, rescue, search and rescue, to be part of 
America's significant effort on homeland security, to be able 
to be all-hazards agencies to really protect us against fires, 
against chemical attacks, to be ready for biological attacks, 
and to be prepared to deal with weapons of mass destruction.
    We know that you cannot do this on either a local property 
tax or, for our volunteer firefighters, you cannot do this on 
fish fries, bingo, and tip jars. We are already asking you to 
put yourself in the line of fire. You do it often on your own 
time, and on your own dime. For the big urban communities, we 
know that their firefighters are often the last in municipal 
budget efforts. We hope to be able to support firefighters the 
way we, over a decade ago, supported our police departments. 
You are our public safety officers, and we are going to make 
sure we help you out.
    I think America does not realize that there are over 1 
million firefighters in the United States of America. Seven 
hundred fifty thousand are volunteers. There are already 
155,000 nationally registered emergency medical technicians. 
Actually firefighters and emergency medical personnel responded 
to over 16 million emergency calls last year. And every year, 
more than 100 firefighters lose their lives in the line of 
duty.
    That is, up until September 11, when a grim and ghoulish 
thing happened where there was an aerial attack on the United 
States of America. And we saw it at the World Trade Center and 
we saw it at the Pentagon. That day in New York City at Ground 
Zero, where both my colleague and I have been, 343 New York 
City firefighters lost their lives in the World Trade Center 
trying to save others.
    Why were they there? Because of the first World Trade 
Center bombing, they were ready to be there first, as quickly 
as they could, should there be anything happening to the trade 
center. Well, you and I know that no one expected the collapse 
of two buildings.
    As I said, this Nation cannot merely express its gratitude 
with words alone. We want to express our gratitude to those who 
risk their lives every day.
    We have been thinking about this for some time, our 
colleagues in the House, our colleagues in the Senate. We know 
that there is a firefighter caucus, of which I have been a 
member. We created a Fire Grant program through FEMA. It was 
authorized at $300 million, which we saw as essentially a down 
payment to meet local needs, not to substitute for 
volunteerism, not to be a substitute for property taxes, but to 
be value added for meeting national needs.
    The first year we provided $100 million. That was for the 
fiscal year 2001 appropriations. Last year we were able to come 
up with an additional $290 million in an emergency 
supplemental.
    But the needs are so tremendous, and I will tell you our 
President, President Bush, and Governor Tom Ridge, our Homeland 
Security Director, have taken note of this. Therefore, the 
President is proposing a significant increase of a $3.5 billion 
grant program for America's first responders. And, do we need 
it.
    Even before September 11, in evaluating the Fire Grant 
program, we saw that FEMA had gotten over 30,000 requests for 
assistance under the Fire Grant program. Remember, this is by 
September 8. That totals $3 billion. In my own State of 
Maryland, 200 separate fire companies sent in requests 
totalling $40 million. These requests were for firefighting 
vehicles, firefighting equipment, and that very crucial 
personal protective gear.
    You all are going to tell me about the cost of a fire 
truck. I think it is $300,000. New rescue vehicles, $500,000. 
Protective gear, well over $1,000. And now, hopefully, we will 
now even have unmanned robots that will go in as preliminaries 
to you. Communication equipment. All of this shows the need, 
and we want to hear what you think.
    I want to pay attention to what President George Bush wants 
in homeland security and how we can support you, but I want to 
pay attention to those of you who respond when either a citizen 
or a President calls up 9-1-1. And 9/11 will be forever in our 
hearts.
    So, today we are turning to our firefighters. We are going 
to listen to them.
    Now I would like to turn to my colleague, Senator Bond, for 
his comments, and then we are going to hear from our first 
panel.


                statement of senator christopher s. bond


    Senator Bond. Thank you very much, Madam Chair, for calling 
this important and timely hearing. I think we could spend all 
day talking about the heroism, the needs, and what we have 
learned. I am going to summarize my formal statement and then 
give you a little insight I gathered yesterday.
    But I think it is clear, as the chair has recognized, that 
the President's budget recognizes and responds to the harsh 
realities of September 11 and what we need to do particularly 
in this area.
    Out of the rubble of this tragedy, Americans who stood tall 
with our firefighters, our police, military, and first 
responders of all kinds, under these horrific circumstances, we 
came together as Americans to respond to the cowardly terrorist 
attacks. And the budget that the President submitted and we are 
supporting is proof to the world that we are not going to bow 
down to the threats of terrorists.
    This hearing should allow us to understand better the 
overall funding needs of fire departments to meet the 
traditional firefighting activities. These needs are very 
different, depending on whether the department is volunteer or 
a paid career department. Many of them are still severely 
lacking in funds, equipment, and training to meet traditional 
local firefighting emergencies. And as the chair has indicated, 
the need was already there before September 11.
    But we will also hear testimony on how the mission and 
needs of firefighters have changed since September 11 and the 
expanded role as first responders to threats and acts of 
terrorism. And they can be not only a horrifying attack on a 
world trade center with an airplane, but they can be 
biological, chemical, or even radioactive. The new 
understanding of these threats has made this significant 
increase in resources necessary.
    It is going to be a real source of pride and pleasure to 
introduce my good friend, Steve Paulsell, Chief of the Boone 
County Fire Protection District, and Sponsoring Agency Chief 
for Missouri Task Force 1. He does a remarkable job in my 
neighboring Boone County, Missouri, administering the fire 
protection district, and as head of Task Force 1, his personnel 
made a tremendous difference in helping victims, as well as 
assisting to minimize the aftermath of this tragedy. I have to 
say that the people of Missouri felt a very real connection 
with the horror of New York because we had dedicated volunteers 
who were willing to go to help. And Steve can give us a 
perspective on both the funding needs of volunteer 
firefighters, as well as the expectations on first responders, 
to acts of terrorism.
    This issue is extremely important to me. There are 865 
rural fire departments in Missouri, meeting the needs of their 
communities on shoestring budgets, guts, and personal 
commitment.
    Steve, I say also, has a special understanding as the 
Sponsoring Agency Chief of 1 of only 28 urban search and rescue 
task forces. They are underfunded, underequipped, but they are 
dedicated and committed first-line soldiers responding to the 
worst acts of terrorism.
    The current capacity of first responders varies widely 
across the United States. Even the best prepared States are 
lacking crucial resources and expertise. And many areas have 
little or no ability to cope or respond to a terrorist attack, 
especially with the new weapons of mass destruction. We need a 
comprehensive approach and we need to back it up with 
resources. Recent revelations that show Osama bin Laden and Al 
Qaeda were looking for vulnerabilities in our dams, water 
systems, and nuclear plants provide a new level of concern and 
responsibility. In these circumstances, we have to identify and 
support these needs.
    But yesterday, as I indicated to my good friend, Senator 
Mikulski, I visited Ground Zero just to see the progress. It is 
unbelievable. You are looking at it from 30 floors up, and you 
see that they have moved 14 to 15 stories of rubble out of the 
way. There are still some areas where we may find remains of 
the victims, but the place is beginning to look like a normal 
construction site. You say, oh, well, that is very nice.
    But then you go down to the ground and you see the family 
platforms, the places where people have posted a message. I 
thought I was tough. I was wrong. I could not handle it. But 
also you see so many good messages. The people who have 
responded from around the country, the volunteers who are still 
working there helping the people engaged in the work and the 
cleanup, to know that the Salvation Army and the Red Cross were 
there, churches were there, school children from all over the 
Nation have sent letters, have sent messages, have sent gifts.


                           prepared statement


    I talked to Reverend Harris at St. Paul's Church, and he 
told me so many stories of people volunteering and the 
volunteers were still working there. And he told me of the 
elderly, very poor lady who lived in the upper Bronx who had 
heard that people had hurt their legs. She took the subway all 
the way down, got through the police lines by dint of sheer 
effort, hobbled up to St. Paul's Church, and handed Reverend 
Harris her cane and said that she wanted to make a 
contribution. That is the spirit in which Americans have 
responded.
    So, with that, thank you very much, Madam Chair. We are 
looking forward to hearing our witnesses.
    [The statement follows:]
           Prepared Statement of Senator Christopher S. Bond
    Thank you, Madam Chair, for calling this important and timely 
hearing. The President submitted his Budget for fiscal year 2003 
yesterday and one of its cornerstones acknowledges the important role 
and funding needs of firefighters in our communities by recommending an 
unprecedented increase of some $3.5 billion in FEMA's budget for the 
homeland security response capabilities of America's First Responders, 
which includes firefighters, police and emergency medical technicians. 
This Budget request recognizes the harsh realities of September 11 and 
the need to be ever vigilant to protect the freedom and moral 
principles that have guided this Nation for over 200 years and which 
have been a beacon of hope for the oppressed peoples of totalitarian 
regimes throughout the world.
    Out of the rubble of this tragedy, Americans have stood tall with 
our firefighters, police and military leading the way. Under these 
horrific circumstances, we banded together as Americans to assist the 
victims of these cowardly, terrorist attacks and this Budget request is 
further proof to the world that we will not bow down to the oppression 
and hate that is the ideology of terrorism.
    So while this hearing is largely designed to review the FIRE Act 
grant program which was initially funded by this subcommittee in fiscal 
year 2001, it also provides an important opportunity to hear first hand 
from the firefighting community about the funding needs and issues that 
face firefighters in their enhanced role as First Responders to acts of 
terrorism.
    This hearing also allows us better to understand the overall 
funding needs of fire departments to meet the traditional firefighting 
activities of their communities. These needs are very different, 
depending on whether the department is a volunteer department or a 
paid, career department. In particular, many or most volunteer fire 
departments are severely lacking in funds, equipment and training to 
meet traditional local firefighting emergencies. We need to understand 
better these needs and how the FIRE Act grant program can be improved 
to ensure these fire departments have the necessary equipment and 
training.
    The need clearly is there. In fiscal year 2001, FEMA received over 
19,000 applications for available grant funds of $100 million. These 
applications constituted some 31,000 requests for assistance for a 
total of $2.9 billion. For fiscal year 2002, we appropriated some $360 
million for the FIRE Act grant program while the act expanded the 
eligible uses of these funds to include training and equipment to 
respond to terrorism or the use of a weapon of mass destruction.
    In addition, we will hear testimony on how the mission and needs of 
firefighters have changed since September 11 with the recognition that 
firefighters, police and emergency medical technicians will have an 
expanded role as First Responders to threats and acts of terrorism, be 
they biological, chemical or the result of the use of a weapon of mass 
destruction. The huge increase in funding for the FIRE Act grant 
program is largely the result of a new understanding and recognition of 
the important role that we expect firefighters to play in response to 
acts of terrorism.
    In particular, I am proud to introduce a witness from Missouri, a 
good personal friend, Steve Paulsell, who is the Chief of the Boone 
County Fire Protection District and Sponsoring Agency Chief for 
Missouri Task Force 1. Steve does a remarkable job in administering the 
Boone County Fire Protection District, which is a volunteer fire 
department and one of the largest in the Nation. In addition, as head 
of the Missouri Task Force 1, his personnel made a tremendous 
difference in helping the victims of the horrific tragedy at the World 
Trade Center as well as assisting to minimize the aftermath of this 
tragedy. With these dual responsibilities, Steve has a unique 
perspective on both the funding needs of volunteer firefighters in 
meeting the traditional responsibilities of local fire departments as 
well as the new expectations for First Responders to acts of terrorism. 
This is an extremely important issue to me since there are 865 rural 
fire departments in Missouri which are volunteer departments meeting 
the needs of their communities on shoestring budgets, guts and personal 
commitment.
    In addition, as the Sponsoring Agency Chief of one of only 28 urban 
search and rescue task forces in the United States, Steve has a special 
understanding of what will be needed to establish a comprehensive, 
national First Responder program. These task forces are currently 
underfunded and underequipped, but, nonetheless, are committed to be 
the front-line solders of our local governments to respond to the worst 
aspects of terrorism at the community level. I believe our first 
obligation is to realize fully the capacity of these 28 search and 
rescue task forces to meet First Responder events.
    As noted, the President has requested an increase of some $3.5 
billion in the fiscal year 2003 budget for FEMA in order to provide 
police, firefighters and emergency medical technical teams with the 
needed training, staffing and equipment to work effectively and quickly 
to meet the threat and consequences of a terrorist attack. Despite the 
response to September 11, the current capacity of communities and First 
Responders vary widely across the United States, with even the best 
prepared States lacking crucial resources and expertise. Many areas 
have little or no ability to cope or respond to a terrorist attack, 
especially ones that use weapons of mass destruction, including 
biological or chemical toxins.
    The recommended commitment of funding in the President's Budget is 
only the first step. There needs to be a comprehensive approach that 
identifies and meets State and local First Responder needs, both rural 
and urban, pursuant to Federal leadership, benchmarks and guidelines. 
As a result, the roles of the Office of Homeland Security and FEMA need 
to be clearly articulated, especially if the Administration expects the 
Congress to bless a transition of responsibility for the police as 
First Responders from the Department of Justice to FEMA. We also need 
to address the fears of local fire departments, especially rural 
departments, that some fire departments will be shortchanged if these 
First Responder funds are block granted to States subject to a State 
plan.
    In addition to these issues, there are recent revelations that 
Osama bin Laden and al Qaeda were looking for vulnerabilities in our 
dams, water systems and nuclear plants. These revelations reemphasis 
the size of the job facing our Nation in providing the needed security 
expected by our citizens and the immediacy of the problem. Finally, 
there needs to be coordination and cooperation through the Office of 
Homeland Security with the Department of Defense, the National Guard, 
FEMA, the Department of Justice and our other domestic agencies to make 
this work. In any event, there is much to discuss and debate.
    Thank you, Madam Chair. I look forward to the testimony today and I 
applaud the early start on this important issue.

    Senator Mikulski. Thank you, Senator Bond.
    I would like to call up now Assistant Chief Morris, and 
Chief Paulsell that Senator Bond has already spoken about, and 
Firefighter Olaguer to present their testimony. Gentlemen, 
America welcomes you, and I want you to know that as we sit 
here today listening to your testimony, we are neither the 
Republican Party nor the Democratic Party. We are the Red, 
White, and Blue Party. So, we are here to work on a bipartisan 
basis to be able to support you.
    Chief Paulsell, Senator Bond has already told us about your 
wonderful and extensive career.
    Assistant Chief Morris, we want to welcome you. For the 
record, please show that Assistant Chief Morris is in the 
volunteer ranks of the Bethesda-Chevy Chase Rescue Squad. He 
joined it in 1984. When he is not saving lives, he is a CNN 
cameraman covering the White House. And that tells you 
something really about the broad spectrum of who our volunteer 
fighters are. It was the Bethesda-Chevy Chase Rescue Squad that 
responded to the Pentagon. When I went over there that day, I 
saw this wonderful rescue squad that literally was moving 
heaven and earth to continue the search and rescue. We look 
forward to hearing that, but we saw you there in that horrific 
undertaking.
    Of course, we have Mr. Olaguer from the Baltimore City Fire 
Department who comes again with an extensive background. He has 
been a firefighter. He has been working as a lieutenant, a 
platform operator, and a pump operator.
    Senator Bond, you should know that Baltimore faced its own 
crisis in August when a cargo train was trapped in one of the 
oldest train tunnels in America. We did not know what was in 
there. We did not know if it was going to explode. We did not 
know if it was going to be a toxic cloud that was going to 
explode over Baltimore. It was a tunnel of several miles.
    And Mr. Olaguer went down into that tunnel and it shows you 
what our firefighters do. They had to go down through a manhole 
cover. They had to go down 8 feet in dark and smoke to a 
platform to then go down another ladder, and we did not know if 
they were descending into hell, toxic fumes, or what they were 
going to find as they did it. And they went fearlessly. They 
were intrepid. And thanks to their effort and the cooperation 
with civil engineering skills, we were able to get out of that. 
But just know there was a time in Baltimore when manhole covers 
were exploding and we had 300-pound manhole covers going 
through the air as frisbees, and these men, going down there, 
did not know what they would find and we did not know if they 
could come back out. So, God bless you for all of that.
    Having said all that, why do we not start with you, Mr. 
Morris, and then just go down the line, ending with you, Mr. 
Olaguer.
STATEMENT OF PETER MORRIS, ASSISTANT CHIEF, BETHESDA-
            CHEVY CHASE RESCUE SQUAD
    Mr. Morris. Good morning, Madam Chairwoman and members of 
the committee. I am Assistant Chief Peter Morris of the 
Bethesda-Chevy Chase Rescue Squad.
    I would like to take the opportunity to commend you, 
Senator Mikulski, and the other members of the subcommittee for 
providing the important leadership needed on this critical 
issue. Senator Mikulski recently visited our station, and the 
firefighter/rescuers in our department were very impressed with 
her interest and her in-depth knowledge of the fire/rescue 
services. We would not be able to do our jobs without the 
support of our elected leaders. We consider the members of this 
subcommittee to be a vital part of our team. Senator Mikulski, 
the extra time that you spent at our station sent a strong 
message to our firefighters that you and your colleagues are 
committed to finding political solutions that help our service 
and ultimately our community. So, we thank you very much for 
that.
    Bethesda-Chevy Chase Rescue Squad is located in Montgomery 
County, Maryland. Our department provides 24-hour fire, rescue, 
and emergency medical service to a suburban/urban area of 
southern Montgomery County and portions of northwest 
Washington, D.C. The rescue squad is unusual in that it 
provides fire and emergency medical service without the benefit 
of tax funds from Montgomery County or the District of 
Columbia. We are a vibrant, successful volunteer organization 
that defies the myth that volunteer fire and rescue departments 
can only exist in rural, low-call volume systems. In 2001, 
Bethesda-Chevy Chase Rescue Squad units responded to 10,957 
emergency incidents.
    Today I have been asked to provide a local responder's view 
of the terrorism and disaster preparedness world. Our response 
area is replete with foreign embassies, residences of senior 
Government officials and other dignitaries, the National 
Institutes of Health, the National Naval Medical Center, four 
Metro stations, and a number of other high-profile Government 
facilities and potential targets for a terrorist attack.
    Over the years, we have responded to major incidents in 
neighboring jurisdictions, including the District of Columbia. 
We share a close daily working relationship with the District 
of Columbia Fire and Emergency Medical Services Department, 
which means that we are one of the first outside resources that 
are called upon to assist the District in a response to a major 
disaster.
    On September 11, 2001, our units were first called to 
assist the District but were sent to the Pentagon once it 
became clear that no targets had been struck in the city. Four 
of our medic units, a special air supply truck, and a command 
officer were on scene at the Pentagon and back-filling 
Arlington County fire stations within the first hour of the 
attack. Our air supply unit supported firefighting operations 
at the Pentagon for the first 24 hours. That same unit was 
parked outside of this building for more than a week supporting 
the cleanup operations at the Hart Building.
    Our experience responding to major incidents over the past 
several decades and our recent experience responding to the 
September 11 attack on the Pentagon has taught us four major 
lessons.
    First of all, these incidents reaffirm the critical role of 
local fire, rescue, EMS, police departments. And local 
governments, including their fire, rescue, EMS, law enforcement 
and public health departments, are the Nation's primary defense 
when a terrorist attack occurs. Local fire and rescue services 
are the only agencies that can respond within minutes and save 
lives while there is still time. They must be equipped to 
provide the initial response, immediate rescue and treatment, 
and scene stabilization.
    Second, the development of Federal assets such as various 
FEMA units, including urban search and rescue teams, the 
metropolitan medical response system, and civil support teams 
are good, but they cannot solve the terrorism problem alone. 
With the exception of designated national security events like 
the Olympics or the Superbowl where Federal assets are likely 
to be prestaged and ready to respond, the response times of 
Federal assets may be extended. Local responders must be 
equipped and prepared to deal with at least the first several 
hours, if not the first 24 hours of a terrorist attack.
    Third, special efforts and attention need to be devoted to 
high threat areas. We know that terrorists are more likely to 
select symbolic targets, including high profile Government 
facilities, and we believe special efforts should be devoted to 
ensuring that departments in and around high-threat targets 
have the information and resources they need to respond 
effectively. Many of these targets are Federal facilities or 
where Federal Government has public safety responsibilities, 
such as foreign embassies.
    Lastly, our department stresses the application of the 
daily routine doctrine to our domestic preparedness plans and 
our overall operations. The daily routine doctrine is a common 
sense theory in emergency planning that espouses the idea that 
what you do regularly you do well. It argues that training and 
techniques and equipment required to mitigate large emergencies 
must be part of daily fire, rescue, and emergency medical 
services, if these incidents are to be managed effectively. If 
we integrate terrorism preparedness into everyday training and 
equipment needs, we are most likely to succeed when the next 
terrorist attack occurs.
    Now, one program that is already in existence that is 
helping to meet the mandate of the daily routine doctrine is 
the Assistance to Firefighters grant program. This program is 
using Federal dollars to bolster the Nation's fire and rescue 
systems.
    The good news about the Assistance to Firefighters grant 
program is that it gave out almost $100 million to improve 
basic fire and rescue infrastructure in the fiscal year 2001. 
These improvements will help all types of emergency response 
whether to a terrorist bombing, an auto collision on an 
interstate highway, or a structure fire.
    The bad news is that slightly more than $2 billion in 
requests did not receive funding, and furthermore, emergency 
medical service preparedness is not currently eligible for 
grants under this program. Congress authorized up to $900 
million for the program each year through fiscal year 2004, but 
only $360 million of that authorization has been appropriated 
for fiscal year 2001. The appropriation should be changed to 
the full $900 million to include emergency medical services.
    We do recommend two changes to the grant program in 
addition to funding the full amount.
    Grants for terrorism preparedness to fire, rescue, and EMS 
departments serving large populations, Federal facilities, and 
specific target hazards should receive favorable consideration 
under the program. In fiscal year 2001, these proposals would 
not have been eligible for consideration at all.
    And two, emergency medical services are an integral part of 
the preparedness puzzle and should be eligible to receive FIRE 
Act money. Their role in patient triage, pre-hospital care, 
decontamination, and incident management at a mass casualty 
incident should be plainly evident. They need training and 
equipment as well.

                           PREPARED STATEMENT

    In summary, we hope that we have provided the committee 
with a snapshot of the challenges that we faced in the post-
September 11 world. The World Trade Center events certainly 
demonstrate that it is possible for terrorists to engineer an 
incident that even the world's largest fire department has 
difficulty in managing. Nevertheless, we must still strive to 
be prepared for whatever occurs. We must enhance our strengths 
and fix but not inappropriately focus on our weaknesses. This 
committee can help by increasing funding to the Assistance to 
Firefighters grant program and improving the impact of the 
program to meet the threats that our first responders may face 
today.
    Thank you for your time, and I will be available to answer 
questions.
    [The statement follows:]
                 Prepared Statement of Peter H. Morris
    Good morning, Madam Chairwoman and members of the Committee. I am 
Assistant Chief Peter Morris of the Bethesda-Chevy Chase Rescue Squad. 
I would like to take the opportunity to commend Senator Mikulski and 
the other members of the sub-committee for providing the important 
leadership needed on this critical issue. Senator Mikulski recently 
visited our station; the firefighter/rescuers in our department were 
very impressed with her interest and in-depth knowledge about the fire/
rescue services. We would not be able to do our jobs well without the 
support of our elected leaders. We consider the members of this sub-
committee to be a vital part of our team. For Senator Mikulski, the 
extra time you spent at our station sent a strong message to our 
members that you and your colleagues are committed to finding practical 
solutions that help our service and ultimately the community. We thank 
you for that.
    B-CC Rescue Squad is located in Montgomery County, Maryland. Our 
department provides 24-hour fire, rescue, and emergency medical 
services to a suburban-urban area of southern Montgomery County, MD and 
portions of northwest Washington, DC. The Bethesda-Chevy Chase Rescue 
Squad is unusual in that it provides fire, rescue, and emergency 
medical service without the benefit of tax funds from Montgomery County 
or the District of Columbia. All our services are free. Although we are 
part of the Montgomery County Fire and Rescue Service, all funds for 
capital improvement and operations are raised primarily through 
individual contributions and foundation grants. We are a vibrant, 
successful volunteer organization that defies the myth that volunteer 
fire and rescue departments can only exist in rural, low call volume 
systems. In 2001, Bethesda-Chevy Chase Rescue Squad units responded to 
10,957 emergency incidents.
    I have been asked to provide a local responder's view of the 
terrorism and disaster preparedness world. It is important to note that 
while we consider ourselves to be a local community based fire/rescue 
department, we do not serve the average community. Our response area is 
replete with foreign embassies, residences of senior government 
officials and other dignitaries, the National Institutes of Health, the 
National Naval Medical Center, four Metro stations, and a number of 
other high-profile government facilities and potential targets for 
terrorist attacks.
    Over the years we have responded to major incidents in neighboring 
jurisdictions, including the District of Columbia. We share a close, 
daily working relationship with the District of Columbia Fire and 
Emergency Medical Services Department (DCF&EMSD), which means that we 
are one of the first outside resources that are called upon to assist 
the District in response to a major disaster. On January 13, 1983, we 
responded with significant resources when an Air Florida jetliner 
crashed into the 14th Street Bridge and, almost simultaneously, a Metro 
train derailed at the Federal Triangle station. On September 11th, 
2001, our units were first called to assist in the District, but were 
sent to the Pentagon once it became clear no targets had been struck in 
the city. Four of our Medic Units, a special air supply truck and a B-
CC Command Officer were on-scene at the Pentagon and back-filling 
Arlington County fire stations within the first hour of the attack. Our 
air supply unit supported firefighting operations at the Pentagon for 
the first 24 hours. That same unit was parked outside of this building 
for more than a week, supporting the clean-up operations in the Hart 
Senate Office Building.
    One of the most fundamental concepts in determining what first 
responders need in order to respond to terrorist attack is an 
assessment of the threats we may potentially face. The problem that 
emergency managers face is weighing the value of protecting against a 
generic threat of a terrorist attack versus preparing to respond to 
actual known emergencies such as heart attacks, auto collisions, and 
structure fires which occur every day. Our challenge is to balance 
these competing needs in crafting an overall strategy for our 
operations, the community we serve, and our neighboring jurisdictions.
    Our experience responding to major incidents over the past several 
decades and our recent experience in responding to the September 11 
attack on the Pentagon has taught us four major lessons.
    First, all of these incidents reaffirm the critical role of local 
fire, rescue, EMS and police departments. Local governments including 
their fire, rescue, emergency medical service, law enforcement and 
public health departments are the Nation's primary defense when a 
terrorist attack occurs. Local fire and rescue services are the only 
agencies that can respond within minutes and save lives while there is 
still time. They must be equipped to provide initial response, 
immediate rescue and treatment, and scene stabilization capabilities.
    Second, The development of Federal assets such as various FEMA 
units, including Urban Search & Rescue (USAR) teams, the Metropolitan 
Medical Response System, and Civil Support Teams are good, but cannot 
solve the terrorism response problem alone. With the exception of 
designated National Security events like the Olympics and the 
Superbowl, where Federal assets are likely to be pre-staged and ready 
to respond, the response times of Federal assets may be extended. Local 
responders must be equipped and prepared to deal with at least the 
first several hours--if not the first 24 hours of a terrorist attack.
    Third, special efforts and attention need to be devoted to high 
threat areas. We know that terrorists are more likely to select 
symbolic targets, including high-profile government facilities. We 
believe special efforts should be devoted to ensuring that departments 
in and around high-threat targets have the information and resources 
they need to respond effectively. Many of these targets are Federal 
facilities, or where the Federal government has public safety 
responsibilities, such as foreign embassies.
    Lastly, our department stresses the application of the ``Daily 
Routine Doctrine'' to our Domestic Preparedness plans and our overall 
operations. The ``Daily Routine Doctrine'' is a common sense theory in 
emergency planning that espouses the idea that ``what you do 
regularly--you do well.'' It argues that training, techniques, and 
equipment required to mitigate large emergencies must be part of daily 
fire, rescue and emergency medical services operations, if these 
incidents are to be managed effectively. Restated, if we integrate 
terrorism preparedness into everyday training and equipment needs, we 
are most likely to succeed when the next terrorist incident occurs.
    One program already in existence that is helping to meet the 
mandate of the Daily Routine Doctrine is the Assistance to 
Firefighter's Grant Program. This program is using Federal dollars to 
bolster the Nation's fire and rescue systems.
    The good news about the Assistance to Firefighter's Grant Program 
is that it gave out almost $100 million to improve basic fire and 
rescue infrastructure in fiscal year 2001. These improvements will help 
all types of emergency response whether to a terrorist bombing, auto 
collision on an interstate highway, or a structure fire.
    The bad news is that slightly more than $2 billion in requests did 
not receive funding. Furthermore, Emergency Medical Services (EMS) 
preparedness is not currently eligible for grants under this program. 
Congress authorized up to $900 million for the program each year 
through fiscal year 2004, but only $360 million of that authorization 
has been appropriated for fiscal year 2002. The appropriation should be 
changed to the full $900 million and should include Emergency Medical 
Services. Departments need this money now to meet the increased demands 
being placed on them.
    We support and encourage strengthening the Peer Review Panel 
process that was used to select grant awards. This process performed 
extremely well given the tight timelines and constraints that were 
mandated. This method of allocation provided an excellent evaluation of 
the grant proposals with a quick turn-around time on the funds. Also 
important is that these grants were awarded directly to fire 
departments with very little indirect costs used for administration. 
This direct method of awarding these grants with low administrative 
costs is fantastic and should be congratulated and continued.
    We do recommend two changes to the Assistance to Firefighter's 
Grant Program in addition to funding the full $900 million:
  --Grants for terrorism preparedness to fire, rescue, and EMS 
        departments serving areas with large populations, Federal 
        facilities, specific target hazards or other demonstrated needs 
        should receive favorable consideration under the Assistance to 
        Firefighter's Grant Program. In fiscal year 2001, these 
        proposals would not have been eligible for consideration at 
        all.
  --Emergency Medical Services are an integral piece of the 
        preparedness puzzle and should be eligible to receive Fire Act 
        money. Their role in patient triage, pre-hospital care, 
        decontamination, and incident management at a mass casualty 
        incident should be plainly evident. They need training and 
        equipment as well.
    In summary, we hope we have provided the Committee with a snap shot 
of some the challenges we face in the post-September 11th world. The 
World Trade Center events certainly demonstrate that it is possible for 
terrorists to engineer an incident that even the World's largest fire 
department has difficulty in managing.
    Nevertheless, we must still strive to be prepared for whatever 
occurs. We must enhance our strengths and, fix, but not inappropriately 
focus on, our weaknesses. This Committee can help by increasing funding 
to the Assistant to Firefighters Grant Program and improving the impact 
of the program to meet the threats that our first responders may face 
today.
    Thank you for your time, and I will be available to answer any 
questions you may have.

    Senator Mikulski. Excellent. Thank you very much for that 
detailed and compelling testimony.
    Chief Paulsell?
STATEMENT OF STEPHEN D. PAULSELL, CHIEF, BOONE COUNTY 
            FIRE PROTECTION DISTRICT AND SPONSORING 
            AGENCY CHIEF, MISSOURI TASK FORCE 1
    Mr. Paulsell. Thank you. Good morning, Madam Chair and 
members of the committee. Thank you for the opportunity to 
speak with you this morning.
    In the interest of the 10-minute rule, I will be presenting 
an abbreviated text, and the full text and supporting documents 
are being provided to you.
    Before I begin my comments, I would like to take this 
opportunity on behalf of our task force and all Missourians to 
thank my good friend, Senator Kit Bond, for his tireless 
efforts in assisting our organization as we work to achieve our 
designation as a Federal task force. His enthusiastic efforts 
here, coupled with the perseverance of our people back home, 
have produced a resource that our entire State has become very 
proud of. Senator, we thank you very much.
    On September 11, as the world watched in horror as the 
events of that morning unfolded, over 100 Missourians quickly 
moved methodically in preparation for an activation to a 
disaster site, as did other task forces throughout the country. 
Members of Missouri Task Force 1, 1 of 28 FEMA urban search and 
rescue task forces, knew that they would be activated. Over 
76,000 pounds of equipment, 62 highly trained search and rescue 
specialists and 4 search canines were ready for assignment. 
Work schedules were cleared. Family commitments were deferred. 
Baseline medical exams were conducted, and equipment was 
loaded. This was to be our first Federal mission, an incredible 
first test.
    By the afternoon of September 12th, Missouri Task Force 1 
was in lower Manhattan working side by side seven other FEMA 
task forces and the incredible firefighters of New York City.
    During the course of the consequence management following 
the attacks at the Trade Center and the Pentagon, 25 of the 28 
task forces were deployed over a 3-week period. Clearly these 
men and women performed admirably under incredibly difficult, 
dangerous, and challenging conditions. While the personal 
tragedies seemed endless, the FEMA urban search and rescue 
family also suffered great personal tragedy with the loss of 
many members of New York City's task force, and specifically 
FDNY Special Operations Chief Ray Downey who, in addition to 
being the godfather of our system, was a very special friend 
and mentor to all of us. Ray gave so much to this program. He 
believed in it. He lived it. He designed it. He dedicated his 
life to it. He died in the lobby of the second tower doing what 
he had always done: saving people.
    On behalf of some 5,200 search and rescue specialists 
across this great country who gallantly serve in the FEMA urban 
search and rescue system, I come before you today in his memory 
with our thoughts, our recommendations, our frustrations, and 
our intense and unyielding desire to make this system the 
system that Ray always dreamed it should be.
    Our world, as we know it, has changed. Those of us in the 
urban search and rescue business clearly understand that and 
quite frankly knew that long before September 11. We are 
clearly on the front line of the Federal Government's response 
to not only natural disasters but to acts of terrorism as well.
    I feel it is very important to ensure that the uniqueness 
of this program is made clear here today. The Federal 
Government has at its immediate disposal 28 heavy search and 
rescue units unmatched anywhere in this world today. They are 
quietly domiciled in 28 different communities across this 
country and staffed by rescue workers serving in their local 
fire departments every day. They train, they prepare, they 
maintain equipment, and they make themselves available on 6 
hours' notice to go anywhere in the country. Yet, they are not 
on the Federal payroll.
    When activated, a 62-member team goes out the door. They 
carry fiber optic search cameras, concrete cutting chain saws, 
and an emergency room. They are self-sustaining for 72 hours 
and carry everything they need, including the kitchen sink. 
Most of all, what they bring to an event is an incredible level 
of expertise and an insatiable desire to help. These people are 
the absolute best at what they do.
    Dollar for dollar, pound for pound, not only is this 
partnership between the Federal Government and local 
governments an incredible value, it inserts the local response 
mentality into the Federal system. These task forces have 
become the Federal Government's rapid reaction force, the 
domestic Marines, if you will, who if given sufficient 
resources, can establish an early disaster beachhead and 
commence operations much sooner than other tactical Federal 
units. We are the civilian equivalent to the military special 
operations force. Our people are trained in all relative 
national standards in rescue, emergency medicine, hazardous 
materials, and emergency incident management. It does not take 
us 48 hours to activate. These teams are multifaceted, mobile, 
self-contained, and capable of interfacing with local incident 
commanders and clearly understand how to move fast in a crisis 
when time is so very critical.
    We, along with first responders across this great country, 
now find ourselves on the front lines of homeland defense in 
this new and expanding era of terrorism. This was again clearly 
validated on September 11.
    As Congress moves forward on issues funding relative to 
homeland defense, response to terrorism, and a plethora of 
other funding initiatives, we come before you to simply ask 
that consideration be given to the following concerns regarding 
an existing and invaluable program. We have stood on the 
sidelines for years as we watched billions of dollars pass by 
us. We believe this is our moment.
    Obviously the equipment operated by these task forces is 
very critical. Since the inception of the program in the early 
1990's, the task forces have yet to become fully equipped. 
Using the meager annual Federal grant of $150,000 per year to 
support training exercises, maintain equipment, and provide 
protective safety equipment for personnel, the task forces have 
been unable to expand their equipment cache. In fact, the 
annual grants are not nearly sufficient for us to even maintain 
our individual systems, let alone enhance them. It is a 
travesty that, for over a decade now, the Federal Government 
has not yet fully equipped its own elite search and rescue 
teams.
    We are very worried about our inability to effect search 
and rescue operations in an environment contaminated by weapons 
of mass destruction. We must immediately equip these task 
forces with the appropriate protections so that we may operate 
in a dirty bomb environment.
    Additionally, as the Federal Government's rapid reaction 
force, this increased capability will enable us to more quickly 
assist a local government in dealing with a direct act of 
chemical or biological terrorism.
    Each task force maintains a roster strength of 186 
personnel. They give of their time and their talents to this 
effort by constantly training and preparing the equipment. Task 
forces incur overtime expenses, insurance expenses, training 
expenses, and protective clothing expenses for our personnel.
    Additionally, the task forces incur equipment maintenance, 
repair, and replacement expenses. Many of the pharmaceutical 
and logistical supplies have shelf lives and must be replaced 
periodically. Some of the equipment is now in excess of 10 
years old. In addition to maintenance issues surrounding parts 
availability, there is always increased technological advances 
we are financially unable to take advantage of.
    In short, the annual funding is embarrassingly inadequate 
for the type of service we are expected to provide. Would you 
feel comfortable hanging from a 15-story building on a 10-year-
old rope?
    This program is one of the most cost effective programs in 
the Federal system and is at the tip of the spear in the 
Federal Government's response to a disaster. And yet, we 
attempt to operate it on a shoestring. With each passing day, 
we get farther behind in equipment currency and dependability, 
we miss training opportunities, task force managers spend more 
time and energy defending their local support of the program to 
their local bean counters, and the tip of the spear continues 
to dull. We must provide appropriate annual grant funding to 
these units to ensure their viability, availability, and 
dependability.
    We are required to be on the tarmac within 6 hours of 
activation and await military airlift. Ground transportation 
requires two tractor-trailers and a bus. Most task forces must 
rely on rental agreements for trucks and buses upon activation. 
Valuable time is lost acquiring and loading vehicles.
    We are also very concerned about the ongoing availability 
of military airlift as we continue to support the war on 
terrorism. In a search and rescue environment, obviously 
response time is critical. Sufficient grant funding should also 
be provided annually to ensure that these task forces are 
preloaded on reliable ground transportation assets and can 
respond immediately upon activation.
    Your Federal task forces are domiciled in local fire 
departments, fire departments that day in and day out take care 
of people immediately. We make tactical decisions in seconds 
and policy decisions within minutes, a concept seemingly 
foreign here in D.C. The sluggishness in the bureaucracy that 
we continually deal with is the most frustrating and puzzling 
thing any of us have ever experienced.
    We are constantly amazed at how many people have to review 
the simplest of documents and seemingly it takes a minimum of a 
month for each. We constantly seek direction and support, yet 
we continually seem to find ourselves in a quagmire of in and 
out boxes, OMB audits, general counsel reviews, rulemaking, 
canceled meetings, and the never-ending pursuit of a decision 
maker. This is not a new problem. It has existed for years.
    The significance of this program has been proven. The 
dedication of 5,200 search and rescue specialists is unmatched. 
In this regard, we simply ask that the proper direction and 
resources be given to FEMA to ensure that the proper priority, 
program emphasis, and attention be given the program to ensure 
its responsiveness to the agencies that participate in the 
program and this country.
    In conclusion, I would like to thank you for your time and 
attention. It is indeed an honor and a privilege to be here 
with you. As we sit here this morning, I know that there are 
5,200 highly dedicated and skilled rescue workers around this 
country valiantly waiting to step into harm's way if needed. 
Know also that those same 5,200 are energized with optimism in 
light of our discussions here this morning. They have spent 
years persevering with meager resources and yet their spirit is 
unwavering. I also thank you on their behalf.

                           PREPARED STATEMENT

    We are simply asking, particularly in light of current and 
anticipated future threats, that the FEMA urban search and 
rescue program be supported properly and fully. It is an 
incredible and very unique resource unmatched anyplace in the 
Federal response system. Our criticality to our Nation's 
response to terrorism in the future will be immense. We simply 
want to perform to our fullest potential. In our business, 
there is no room for mediocrity.
    Thank you very much.
    [The statement follows:]
               Prepared Statement of Stephen D. Paulsell
    Good Morning. Madam Chair and members of the committee, thank you 
for the opportunity to speak with you this morning.
    My name is Steve Paulsell. I serve as Fire Chief of the Boone 
County, Missouri Fire Protection District and also have the distinct 
honor of serving as the sponsoring agency chief for Missouri Task Force 
1, one of your 28 FEMA Urban Search and Rescue Task Forces.
    Before I begin my comments, I would like to take this opportunity, 
on behalf of our task force and all Missourians, to thank my good 
friend, Senator Kit Bond, for his tireless efforts in assisting our 
organization as we worked to achieve our designation as a Federal task 
force. His enthusiastic efforts here, coupled with the perseverance of 
our people back home, have produced a resource that our entire State 
has become very proud of. Senator, we thank you very much.
    On September 11, as the world watched in horror as the events of 
that morning unfolded, over one hundred Missourians moved quickly and 
methodically in preparation for an activation to a disaster site, as 
did the other task forces throughout the system. Members of Missouri 
Task Force 1, one of 28 FEMA Urban Search and Rescue Task Forces knew 
that they would be activated. Over 76,000 pounds of equipment, 62 
highly trained search and rescue specialists and 4 search canines were 
readied for assignment. Work schedules were cleared, family commitments 
were deferred, baseline medical exams were conducted and equipment was 
loaded. This was to be our first Federal mission--an incredible first 
test.
    Within four hours, the official activation orders were received. 
Under our agreement with FEMA, we were to be on the tarmac at Whiteman 
Air Force Base within six hours of our activation. Our people and 
equipment cleared security and were loaded on 3 Air Guard C-130's which 
would take them to McGuire Air Force Base in New Jersey. Upon their 
arrival at McGuire, they were billeted for a few hours for some badly 
needed sleep. During the night, they were joined by three of our fellow 
task forces from California.
    Shortly after noon on September 12th, the first four task forces to 
arrive by air were transported via escorted convoy into Manhattan where 
they established their base of operations at the Javits Convention 
Center, joining four other Federal task forces that had previously 
arrived by ground transportation--Pennsylvania, Ohio, Massachusetts and 
Indiana. By that evening, they were on assignment at Ground Zero at the 
World Trade Center and, for they next ten days, worked around the 
clock, side by side with seven other FEMA task forces and the 
incredible firefighters of New York City.
    During the course of consequence management following the attacks 
at the Trade Center and Pentagon, 25 of the 28 task forces were 
deployed over a three-week period. Clearly, these men and women 
performed admirably under incredibly difficult, dangerous and 
challenging conditions. While the personal tragedies seem endless, the 
FEMA Urban Search and Rescue family also suffered great personal 
tragedy with the loss of many members of New York City's task force 
and, specifically, FDNY Special Operations Chief Ray Downey who, in 
addition to being the godfather of our system, was a very special 
friend and mentor to all of us. Ray gave so much to this program. He 
believed in it. He lived it. He designed it. He dedicated his life to 
it. He died in the lobby of the second tower, doing what he had always 
done--saving people. On behalf of some 5,200 search and rescue 
specialists across this great country who gallantly serve in the FEMA 
Urban Search and Rescue System, I come before you today, in his memory, 
with our thoughts, our recommendations, our frustrations and our 
intense and unyielding desire to make this system what Ray always 
dreamed it should be.
    FEMA's Urban Search and Rescue System was conceived in the early 
1990's. It was born of a growing concern for local and State 
governments' inability to deal with the collapse of steel and 
reinforced concrete buildings in, primarily, earthquake events. Through 
cooperative partnerships with 28 local fire departments, FEMA has 
developed a national rescue response system and integrated it into the 
Federal Response Plan. While the system has been activated for 
hurricanes, tornadoes and earthquakes, its most notable missions have 
been to the Oklahoma City bombing and, of course the Pentagon and World 
Trade Center.
    Funding has been meager, at best. Early Federal grant funding was 
approximately $80,000 annually. In 1997, Senator Bond was instrumental 
in increasing the annual allocation and, today, each task force 
receives $150,000 annually. Additional funding for some equipment 
acquisition has been provided during disasters through the Stafford 
Act. Unfortunately, not all task forces have been able to take 
advantage of that. It is also very important to point out that a great 
deal of the operating expenses of these task forces to insure their 
readiness has been absorbed by the sponsoring agencies.
    Our world, as we all know, has changed. Those of us in the urban 
search and rescue business clearly understand that and, quite frankly, 
knew that long before September 11. A process, although very minimal, 
had already been undertaken to bring 6 of the 28 task forces to a level 
of capability, which will enable them to function in an environment 
contaminated by chemical, biological or nuclear agents--Weapons of Mass 
Destruction. This has been done in anticipation of next week's Olympic 
games in Salt Lake City.
    We are, clearly, on the front line of the Federal government's 
response to, not only natural disasters but to acts of terrorism, as 
well.
    I feel it very important to insure that the uniqueness of this 
program is made clear here today. The Federal government has, at its 
immediate disposal, 28 heavy search and rescue units unmatched anywhere 
in this world today. They are quietly domiciled in 28 different 
communities across this country and staffed by rescue workers serving 
in their local fire departments everyday. They train, they prepare, 
they maintain equipment and they make themselves available on six hours 
notice to go anywhere in the country yet, they are not on the Federal 
payroll.
    When activated, a 62 member team goes out the door with rescue 
specialists, technical and canine search specialists, physicians, 
structural engineers, communications specialists, hazardous materials 
technicians, paramedics and nurses, heavy equipment operators, safety 
specialists, logisticians and incident management personnel. They carry 
fiber optic search cameras and concrete cutting chain saws. They are 
self-sustaining for 72 hours and carry everything they need including 
the kitchen sink. Most of all, what they bring to the event is an 
incredible level of expertise and an insatiable desire to help. These 
people are the absolute best at what they do.
    Dollar for dollar--pound for pound, not only is this partnership 
between the Federal government and local governments an incredible 
value, it inserts that local response mentality into the Federal 
system. These task forces have become the Federal government's rapid 
reaction force--the domestic marines, if you will, who, if given 
sufficient resources, can establish an early disaster beachhead and 
commence operations much sooner than other tactical Federal units. We 
are the civilian equivalent to the military special operations forces. 
Our people are trained to all relative national standards in rescue, 
emergency medicine, hazardous materials and emergency incident 
management. It does not take us 48 hours to activate. These teams are 
multi-faceted, mobile, self-contained, and capable of interfacing with 
local incident commanders and clearly understand how to move fast in a 
crisis when time is so very critical. Most importantly, however, these 
units are highly flexible and readily adaptable.
    I come before you today on behalf of the men and women who comprise 
this system. My comments stem from discussions with task force leaders 
and sponsoring agency chiefs and, they come from our intense desire to 
make this system right--the way Ray Downey wanted it.
    We, along with first responders across this great country, now find 
ourselves on the front lines of homeland defense in this new and 
expanding era of terrorism. This was, again, clearly validated on 
September 11.
    As Congress moves forward on issues funding relative to Homeland 
Defense, response to terrorism and a plethora of other funding 
initiatives, we come before you to simply ask that consideration be 
given to the following concerns regarding an existing and invaluable 
program. We have stood on the sidelines for years as we watched 
billions of dollars pass by us. We believe this is our moment.
                      task force equipment caches
    There is an urgent need to completely equip the 28 FEMA Urban 
Search and Rescue Task Forces with basic compliment of equipment 
prescribed by FEMA.
    Obviously, the equipment operated by these task forces is very 
critical. They deploy with approximately 80,000 lbs. of search, rescue 
and support equipment. A full compliment or cache of equipment is 
valued at $1.8M. Since the inception of the program in the early 
1990's, the task forces have yet to become fully equipped. Using the 
meager annual Federal grant of $150,000 per year to support training 
exercises, maintain equipment and provide protective safety equipment 
for personnel, the task forces have been unable to expand their 
equipment cache. In fact, the annual grants are not nearly sufficient 
for us to even maintain our individual systems, let alone enhance them.
    We must complete these equipment caches. It is a travesty that, for 
over a decade now, the Federal government has not yet fully equipped 
its own elite search and rescue teams.
    An immediate allocation of $10M is necessary to meet this need.
         weapons of mass destruction protection for task forces
    All FEMA US&R Task Forces must be capable of operating in an 
environment contaminated by Weapons of Mass Destruction.
    We hear a great deal, these days, about weapons of mass 
destruction. We are also hearing growing and, in our opinion, very real 
concern over dirty bomb scenarios. A dirty bomb is a device in which a 
conventional explosive device is laced with a chemical, biological or 
nuclear agent. Our task forces will be called upon to effect search and 
rescue activities in a collapse environment. We MUST be capable of 
providing agent identification and personal protection for our people 
while engaged in a search and rescue mission.
    Each task force carries a small complement of hazardous materials 
mitigation equipment. This equipment is designed to assist us in 
minimal protection of our personnel, should a hazardous substance be 
encountered in a conventional building collapse but it is not 
sufficient to meet the demands that will be created by a dirty bomb.
    Additionally, as the Federal government's rapid response force, 
this increased capability will enable us to more quickly assist a local 
government in dealing with a direct act of chemical or biological 
terrorism.
    Six of the 28 teams, as a result of the Salt Lake Olympics, have 
been trained and equipped to this level.
    I would be remiss if I did not take this opportunity to express 
another concern relative to this entire WMD issue. The Federal 
government has vested significant funds in the Department of Defense in 
recent years to enhance chemical, biological and nuclear defense 
capabilities. In our estimation, those programs, particularly now at a 
time of international crisis, are not positioned, nor always readily 
available, to provide the homeland defense service they were originally 
designed for. We strongly suggest that the entire Federal response plan 
for domestic WMD events be reevaluated prior to further funding or 
expansion with strong consideration being given to the responsibilities 
and capabilities of first responders.
    An immediate allocation of $31.6M will provide appropriate 
equipment and training.
           properly fund annual grant program for task forces
    Adequate annual grant funding must be provided to the task forces 
to insure they are capable of operating at maximum effectiveness. 
Present funding is terribly inadequate.
    Each task force maintains a roster strength of 186 personnel. They 
give of their time and talents to this effort by constantly training 
and preparing the equipment. Task forces incur overtime expenses, 
insurance expenses, training expenses and protective clothing expenses 
for our personnel.
    Additionally, the task forces incur equipment maintenance, repair, 
and replacement expenses. Many of the pharmaceutical and logistical 
supplies have shelf lives and must be replaced periodically. Some of 
the equipment is now in excess of ten years old. In addition to 
maintenance issues surrounding parts availability, there is always 
increased technological advances we are, financially, unable to take 
advantage of.
    In short, the annual funding is embarrassingly inadequate for the 
type of service we are expected to provide. Would you feel comfortable 
hanging from a 15 story building on a ten year old rope?
    This program is one of the most cost effective programs in the 
Federal system and is at the tip of the spear in the Federal 
government's response to a disaster. And yet, we attempt to operate it 
on a shoestring. With each passing day, we get farther behind in 
equipment currency and dependability, we miss training opportunities, 
task force managers spend more time and energy defending their local 
support of the program to their local bean counters and the tip of the 
spear continues to dull. We must provide appropriate annual grant 
funding to these units to insure their viability, availability and 
dependability.
    Annual grant needs per task force is $1M.
                       task force transportation
    Funding must be provided to enhance the mobility of task forces by 
ground.
    Under the Federal response plan, upon receipt of activation orders 
from FEMA, we are required to move 62 members and 80,000 lbs. of 
equipment very quickly. Our orders direct us to a point of departure at 
an Air Force base. We are required to be on the tarmac within 6 hours 
of activation and await military airlift. Ground transportation 
requires two tractor-trailers and a bus. Air transport then requires 3 
C-130s or one C-5A military airframe.
    Most task forces must rely on rental agreements for trucks and 
buses upon activation. Valuable time is lost acquiring and loading 
trucks.
    We are also very concerned about the ongoing availability of 
military airlift as we continue to support the war on terrorism. In a 
search and rescue environment, obviously, response time is critical. 
Sufficient grant funding should also be provided annually to insure 
that these task forces are preloaded on reliable ground transportation 
assets and can respond immediately upon activation. In most areas of 
our country, several task forces could arrive on site by ground long 
before airlift arrives.
    Annual system cost: $4M
                      task force system expansion
    Following catastrophic events as were experienced on September 11, 
there is predictable discussion regarding additional task forces. 
Should an expansion be warranted, the most cost effective approach is 
to enhance the task forces.
    There is always discussion following events like Oklahoma City and 
September 11 regarding the possible expansion of the FEMA US&R system 
to include additional teams. Several important points must be made in 
this regard.
    First, the existing 28 task forces, in our opinion, are under 
utilized. This poses training and proficiency challenges. A further 
dilution of the system would have catastrophic effects on the existing 
task forces. Even in the aftermath of September 11, two of the existing 
task forces were not used.
    Second, should there be a desire to expand the program, based on 
sound threat assessment, the acquisition of additional caches for the 
existing task forces would double the Federal capacity without 
incurring additional personnel or training expenses. Specifically, we 
are staffed and trained three deep in each position to insure immediate 
deployment capability. Sixty two go and 124 stay home. Within the first 
24-36 hours each of our task forces could easily field another 62-
member trained team. All we lack are the additional equipment caches. 
In other words, for an additional $50.4M, we could double the system 
capacity utilizing existing trained personnel.
            international response of additional task forces
    With a growing threat to our interests abroad, an expansion of our 
international response system is warranted. Presently, only two of our 
28 task forces are prepared and authorized for overseas deployment.
    As we move to enhance our homeland defenses, the vulnerability of 
our facilities and those of our allies abroad will increase.
    Presently, two of the 28 task forces are equipped and maintain 
agreements with the Office of Foreign Disaster Assistance within the 
State Department to respond outside the United States. We do not 
believe this is adequate and immediate steps should be taken to 
facilitate the overseas deployment of any of the task forces should 
they be needed on foreign soil.
    This will involve the acquisition of additional logistical 
supplies, provision for passport acquisition, immunizations and an 
adjustment in the State Department's philosophy regarding the need for 
additional teams for international deployment.
                     task force system enhancements
    FEMA's Incident Support Teams are vital to US&R missions. 
Additionally, task force readiness evaluations are essential to 
maintaining optimum capability. Both programs require additional 
support.
    Upon deployment of Urban Search and Rescue assets, FEMA deploys 
Incident Support Teams (ISTs) to interface with the local jurisdiction 
and provide management and coordination of task force resources. This 
is a very vital function and maximizes the utilization and efficiency 
of the task forces in addition to facilitating a cooperative effort in 
the local/Federal interface.
    An increase in funding is necessary to insure that appropriate and 
timely task force readiness evaluations can be effected. It is critical 
that this quality assurance system is maintained and conducted. The 
present system is only capable of conducting one or two evaluations per 
year.
    The annual cost for IST support and readiness evaluations is $5M.
                   program administration and support
    Historically, the task forces have experienced significant 
frustrations with the Federal bureaucracy. In light of immediate and 
expanding threats and the need for a system that is responsive to 
changing threats, additional support and program emphasis is required 
at FEMA.
    Your Federal task forces are domiciled in local fire departments--
fire departments that day in and day out take care of people--
immediately. We make tactical decisions in seconds and policy decisions 
within minutes--a concept seemingly foreign here in D.C. The 
sluggishness and the bureaucracy that we continually deal with is the 
most frustrating and puzzling thing any of us have ever experienced.
    We are constantly amazed at how many people have to review the 
simplest of documents and, seemingly, it takes a minimum of a month for 
each. We constantly seek direction and support yet we continually seem 
to find ourselves in quagmire of in and out boxes, OMB audits, General 
Counsel reviews, rulemaking, cancelled meetings and the never ending 
pursuit of a decision maker. This is not a new problem. It has existed 
for years.
    We ask that program staff be empowered to provide direction and we 
be allowed to operate a responsive program capable of saving lives. It 
is our mindset--it is the way we do business. While we are sure that 
FEMA's urban search and rescue program is woefully understaffed, we 
also believe that it has more to do with the mentality and, perhaps, 
the conflict between two drastically different delivery cultures. 
Particularly in this time of uncertainty, we must be able to adjust 
quickly to meet changing needs.
    We realize that the Federal government, clearly, must do business 
differently than we do at the local level but we also propose that, 
particularly in light of the criticality of our mission that some 
direction be given to this program to streamline its ability to do 
business. Specialized rescue course development takes two years, policy 
and procedures never get completed and rulemaking to develop more 
equitable MOA's seems to get stalled someplace for up to three years--
we can't even find it.
    The significance of this program has been proven. The dedication of 
5,200 search and rescue specialists is unmatched. In this regard, we 
simply ask that the proper direction and resources be given to FEMA to 
insure that the proper priority, program emphasis and attention be 
given the program to insure its responsiveness to agencies that 
participate in the system.
                               conclusion
    In conclusion, I would like to thank you for your time and 
attention. It is indeed an honor and a privilege to be here and know 
that this type of interest exists for your Federal urban search and 
rescue program. As we sit here this morning, know that there are 5,200 
highly dedicated and skilled rescue workers around this country 
valiantly waiting to step into harm's way, if needed. Know also that 
those same 5,200 are energized with optimism in light of our 
discussions here this morning. They have spent years persevering with 
meager resources and yet, their spirit is unwavering. I also thank you 
on their behalf.
    We are simply asking, particularly in light of current and 
anticipated future threats, that the FEMA Urban Search and Rescue 
Program be supported properly and fully. It is an incredible and very 
unique resource unmatched anyplace in the world. Our criticality to our 
Nation's response to terrorism in the future will be immense. We simply 
want to perform to our fullest potential. In our business, there is no 
room for mediocrity.
    Thank You.
                        Supporting Documentation
            national urban search and rescue response system
    The National Urban Search and Rescue (US&R) Response System, 
established under the authority of the Federal Emergency Management 
Agency (FEMA) in 1989 is a framework for structuring local emergency 
services personnel into integrated disaster response task forces.
    These task forces, complete with necessary tools and equipment, and 
required skills and techniques, can be deployed by FEMA for the rescue 
of victims of structural collapse.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               about us&r
    Urban search-and-rescue (US&R) involves the location, rescue 
(extrication), and initial medical stabilization of victims trapped in 
confined spaces. Structural collapse is most often the cause of victims 
being trapped, but victims may also be trapped in transportation 
accidents, mines and collapsed trenches.
    Urban search-and-rescue is considered a ``multi-hazard'' 
discipline, as it may be needed for a variety of emergencies or 
disasters, including earthquakes, hurricanes, typhoons, storms and 
tornadoes, floods, dam failures, technological accidents, terrorist 
activities, and hazardous materials releases. The events may be slow in 
developing, as in the case of hurricanes, or sudden, as in the case of 
earthquakes.
                         incident support team
    The Incident Support Teams supports the US&R Task Forces in 
accomplishing their mission through logistical, electronic and 
coordination expertise.
                  fema task force tools and equipment
    The equipment cache used to support a task force weighs nearly 
60,000 pounds and is worth about $1.4 million. Add the task force 
members to the cache and you can completely fill a military C-141 
transport or two C130's.
    Logistics specialists handle the more than 16,400 pieces of 
equipment needed to support the task force. To ensure rapid response 
and to avoid burdening the already suffering community more, the task 
force equipment cache must be a mobile emergency room, construction 
site, communications center, high-tech engineering firm and camp rolled 
into one.
    The equipment cache allows the task force to be totally self-
sufficient for up to four days.
    The equipment cache consists of five types of equipment: medical, 
rescue, communications, technical support and logistics.
    Medical supplies include various medicines, intravenous fluids, 
blankets, suture sets, airways, tracheal tubes, defibrillators, burn 
treatment supplies, bone saws and scalpels.
    The search component of the equipment is a lot like the equipment 
at a normal construction site. Common building supplies such as 
concrete saws, jackhammers, drills, lumber and rope are used to safely 
and slowly remove victims from the rubble.
    The communications section allows rescuers to stay in contact in 
case of a find or an evacuation. Generators, lights, radios, cellular 
phones, laptop computers and other electronics equipment are used.
    More than 500 items make up the technical support cache, the most 
high-tech of all the equipment. Snake-like cameras and fiber optic 
scopes are used to locate victims trapped in rubble. Sensitive 
listening devices that can detect even the slightest human sound locate 
victims who are still alive.
    The logistics section cares for the needs of the rescuers as they 
work in 12-hour shifts around the clock. Supplies include sleeping 
bags, cots, food and water, as well as cold weather gear. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

           urban search and rescue: commonly asked questions
    Washington, D.C., September 18, 2001--The terrorist attacks on the 
World Trade Center and the Pentagon have thrust FEMA's Urban Search and 
Rescue (US&R) teams--and rescue teams in general--into the spotlight. 
Their important work has transfixed a world, brought a surge of 
gratitude and support, and raised many questions. Below are some 
answers to questions being asked about US&R and the rescue efforts.
What is FEMA's National US&R response system?
    This system is a framework for structuring local emergency 
personnel into integrated disaster response task forces. These task 
forces, complete with necessary tools and equipment, and specialized 
training and skills, are deployed by FEMA in times of catastrophic 
structural collapse.
How many FEMA US&R teams are there?
    There are 28 teams: one from Arizona; eight from California; one 
from Colorado; two from Florida; two from Virginia, and one each from 
Indiana, Maryland, Massachusetts, Missouri, Nebraska, Nevada, New 
Mexico, New York, Ohio, Pennsylvania, Tennessee, Texas, Utah and 
Washington State.
How are FEMA US&R teams different from other search and rescue teams?
    FEMA teams organize existing search and rescue capability into a 
national program that can quickly deploy to an event. They have 
additional training, and must be able to deploy within six hours and to 
sustain themselves for 72 hours. They must also have a roster that 
fills 31 different positions with at least two people for each 
position. To receive the FEMA certification, the team must be approved 
by a US&R oversight board that includes leaders in the field and FEMA 
officials. One of the difficulties in obtaining the certification is 
being able to staff a complete roster of at least 62 trained 
individuals.
What kind of positions make up the 31 in each team?
    First, all team members are trained and certified emergency medical 
technicians. Then positions fall into roughly four categories: search 
and rescue; medical; technical and logistics. The search and rescue 
positions include engineers with expertise in shoring up, bracing, 
evaluating, breaching and lifting structural components, rescue 
specialists, and search specialists who use trained and credentialed 
search dogs, cameras and listening devices. The medical positions 
include physicians, EMTs, nurses and others who can set up and staff a 
mobile field hospital. Technical positions include hazard materials 
specialists and communications specialists, among others.
What are the first steps the teams take when they arrive at a site?
    The FEMA US&R team meets with the field incident commander--the 
local firefighter or emergency specialist who is in charge of the site. 
After a general situation update and briefing, some team members set up 
a base of operations at the site, including tents, equipment and a 
stage area. Meanwhile, search and rescue specialists and structural 
engineers inspect the site. They look for major problem areas, likely 
areas to search, the condition of the collapse and hazardous materials. 
Also at this time, logistics team members are contacting local vendors 
to obtain heavy equipment, shoring materials, food, portable toilets 
and other supplies.
Then what happens?
    The search and rescue specialists being to gently and carefully 
move into the structure into areas that are not in imminent danger of 
collapse to get a better idea of the damage. They will have looked at 
blueprints of the building to understand its layout and will mark areas 
that need bracing and areas where victims can be seen. During this 
preliminary search, if any victim is found alive, the survey halts and 
stabilization efforts are concentrated there to get the victim out. 
After this preliminary search, the detailed search begins with dogs, 
cameras and listening devices. Medical services are given to any 
victims who are found alive, so they are treated while they are being 
extricated.
What comes next?
    Major shoring up is the priority at this point, as additional 
search is not possible until the site is safe. Shoring up will take 
place, often, in many different places on the site and searches will be 
conducted simultaneously. As more and deeper parts of the structure are 
shored up, the searchers are able to penetrate deeper into the 
collapsed structure and are not seen from the outside. The search 
continues as long as it's possible that victims remain alive.
What makes the task so difficult?
    Essentially the teams have to ``de-layer'' the site. Layers of 
slabs ``pancake'' on top of each other during a collapse. Within each 
layer are potential safe areas for victims. But the site has to be dug 
out from the top to the bottom and from the outside to the inside or 
the pile will collapse further, threatening rescue workers and 
potentially killing buried, but alive victims.
Is that why rescuers don't dig from underneath the structure to reach 
        people?
    Yes, to do so is impossible without injuring or killing rescuers.
Why do rescuers use ``bucket brigades'' to remove the debris rather 
        than heavy equipment, such as bulldozers or cranes?
    Heavy equipment can't get close enough to the core of the site. The 
equipment is blocked by twisted steel and slabs, at a minimum. Plus 
using heavy equipment would destabilize the structure, risking the 
lives of rescuers and victims buried in the rubble. Only by hand can 
the pulverized concrete, glass, furniture and other debris be removed. 
In a large site, such as the World Trade Center, the bucket brigade has 
to span a long way across potentially unstable parts of the structure 
to firm ground that can handle large trucks to haul it away. The site 
itself spans four square city blocks and seven different collapsed 
buildings.
In the World Trade Center, for example, what amount of debris are we 
        talking about?
    In the first five days after the collapse of the towers, 30,000 
tons of debris had been removed by hand; there are 600,000 tons left.
Do bulldozers or cranes ever help?
    Yes, when it is determined that the rescue effort is over and that 
no one remains alive in the structure, large equipment can be moved in 
to remove debris.
Since water is necessary to keep trapped victims alive until they are 
        rescued, why don't rescuers shower the site with water in the 
        hopes it will reach them?
    Water creates significant problems for rescuers, slowing down the 
rescue process and potentially destabilizing the site because of run-
off.
How often are the US&R teams rotated?
    The teams work 12 hours on and 12 hours off. They may rotate 
members within the team--remember each position has at least two 
members--or they may rotate complete teams. Typically, no team stays on 
site for more than seven days before being rotated out.
Since there are so many teams, why are there only eight at the World 
        Trade Center and four at the Pentagon?
    It has to do with space limitations at the site. You can only have 
so many workers ``attacking'' the structure at one time before it 
becomes too dangerous. Also, the FEMA US&R teams augment the skilled 
and determined local rescuers as well, so there are sufficient numbers 
of rescuers at any time.
What kind of risks do the US&R teams face?
    Of greatest concern, of course, is being crushed by a structural 
collapse. Rescuers also get cuts and scrapes, broken bones, respiratory 
injuries due to hazardous material/fumes, dust and carbon monoxide, and 
burns. They are also susceptible to diseases such diphtheria, tetanus 
and pneumonia.
How are the teams paid?
    When they are activated by FEMA, they are paid by FEMA. Otherwise, 
they work their regular jobs.
Who funds their equipment?
    FEMA funds the equipment. Each team has about $1.7 million worth of 
equipment, and team member may each carry as much as 60 pounds of 
equipment and protective clothing on their body.
How long will they stay at a site?
    Until it is determined that no victims could possibly be alive. In 
Oklahoma City, the teams stayed for 15 days.
Does FEMA hire members of the US&R team and how can I apply?
    FEMA does not hire team members; FEMA credentials teams that meet 
the stringent criteria and are approved by the US&R oversight board. 
The training is extensive and the commitment required is significant.

    Senator Mikulski. Chief, thank you very much for that 
outstanding contribution. I feel like I have just listened to 
the Schwarzkopf of the firefighting community.
    I am ready to organize and mobilize. Your testimony was 
outstanding, along with Assistant Chief Morris. I can 
understand why Senator Bond is so proud of you and the work you 
do. We are delighted you are part of the panel.
    Mr. Paulsell. Thank you very much. It is an honor to be 
here.
    Senator Mikulski. We will come back to you because you have 
given us a good blueprint.
    Firefighter Olaguer.
    We would like to hear from you now. But, before we do, I 
want to acknowledge the presence of another outstanding 
colleague, Senator Larry Craig of Idaho, who comes really from 
the perspective of a rural population from very rugged terrain 
that also faces, in addition to these new threats we are 
talking about, the whole issues around firefighting and forest 
fires.
    So, there has to also be regional sensitivity. As Assistant 
Chief Morris mentioned, for those of us who are in the Capital 
Region, there is one kind of threat. Missouri, with its very 
strategic location and knowing the flooding and issues and so 
on, is another. Then you have the west that faces other types 
of firefighting challenges. Yet, we are going to call upon 
them, as you said, to back up where others need to be deployed.
    So, Senator Craig, we are just delighted that you are here.
    Why do you not go ahead?
STATEMENT OF CARLOS OLAGUER, FIREFIGHTER, BALTIMORE 
            CITY FIRE DEPARTMENT
    Mr. Olaguer. Thank you. Did you have an opportunity to get 
this picture here?
    Senator Mikulski. Yes.
    Mr. Olaguer. Okay, thank you. It is a representation of 
what I am talking about.
    Senator Mikulski. You went down in the tunnel. Right?
    Mr. Olaguer. Physically I did not go in the manhole, no. I 
dealt with the north end of the tunnel on the third alarm 
response. My unit did. And also once the trains were pulled 
out, we were extinguishing the product and having to remove the 
product on there.
    Senator Mikulski. You tell us your story and what you think 
you need to.
    Mr. Olaguer. The story is quite compelling.
    Madam Chair, members present, and guests, my name is Carlos 
Olaguer, and I am a Baltimore City firefighter.
    On July 18th of last year, Baltimore City firefighters 
responded to a train fire inside the Howard Street Tunnel, a 
tunnel built in 1895, 1.7 miles long and directly beneath the 
heart of the city. My unit, truck company 26, located in the 
northeast part of the city, responded on the third alarm to the 
north entrance of the tunnel at Mt. Royal Avenue.
    Surrounding the north entrance are historic buildings and 
cultural centers which are a part of many great cities.
    Truck 26 was initially dispatched for additional manpower 
and rapid intervention and had several minutes to reach the 
staging area and prepare for the task at hand. First due fire 
companies, anticipating diesel smoke from the train's engine, 
had no idea of the magnitude of the fire. The amount of smoke 
emanating from the north end of the tunnel was so thick and 
toxic that citizens above the tunnel had to be tended to and 
cleared from the area.
    The next morning, engine 27, also stationed with truck 26, 
staged near the south entrance of the tunnel near Camden Yards. 
The south end of the tunnel is, once again, 1.7 miles from the 
north entrance and almost 5 miles from our own station engine 
27 and truck 26.
    Prior to the tunnel fire, seven fire companies were closed 
in Baltimore City. Six of these seven were closer to the tunnel 
fire than engine 27 and truck 26.
    Engine 27 was to advance hose lines into the south end and 
attack the fire from within. The pump operator, stationed above 
ground in his wagon, was responsible for maintaining water flow 
to the firefighters down below. He would position himself near 
the opening of the tunnel to try to maintain radio contact, 
then retreat to the engine to make any adjustments needed. He 
would then return to his listening position. Although many 
attempts were made, engine company 27 was unable to reach the 
train from the south entrance.
    Engine 27 was later repositioned to a manhole opening 
directly above the still burning train. Through this opening, 
firefighters came in direct contact with the burning train. 
Each firefighter entering the hole was now being exposed to 
direct heat and smoke and whatever chemicals were spewing from 
the train. Please keep in mind that the train had been burning 
for more than 24 hours at this point.
    On the fifth day of the tunnel fire, boxcars were finally 
removed from the tunnel and pulled to a remote location near 
Fort McHenry. Truck 26 was again dispatched along with aerial 
tower 102 and engine company 14. The task at hand was to 
forcibly enter the boxcars and extinguish all contents. The 
process began on the day shift and my shift relieved on the 
scene at 1700 hours, or 5:00 p.m. We were subsequently relieved 
at 3:00 a.m. and returned to our own station.
    It is important to note that similar operations were being 
done at the north end of the tunnel. Trains were taken out of 
the south and also on the north end.
    Madam Chair, the events I described placed the citizens and 
firefighters of Baltimore City in great peril. The horrific 
events of September 11 brought new awareness and respect to our 
Nation's firefighters. 9/11 forever changed this country. For 
firefighters, we will never forget the heroism of the New York 
brothers and sisters and the ultimate sacrifice made by 343 
dedicated firefighters who died saving tens of thousands of 
lives.
    However, it would be a mistake for this committee or anyone 
else to frame the needs of the fire service by the events of 9/
11. Across the country in communities large and small, 
firefighters and paramedics answer the call every day. Whether 
it is a train derailment in Baltimore, a raging forest fire in 
the west, or a vacant warehouse in Worcester, Massachusetts, we 
respond. We serve and in all too many cases we die.
    The sad irony is that in spite of our sacrifice and 
dedication, we are simply not provided with the resources and 
equipment to do our job safely and effectively. As municipal 
and county budgets tighten, the fire service becomes the 
unfortunate target of cuts. Our industry is hemorrhaging and we 
need your assistance now.
    I can only speak to the needs of our Maryland firefighters. 
Across the board in every category in which FIRE Act money can 
provide revenue, there are deficiencies. In training, 
equipment, apparatus, communications, safety and health issues, 
and staffing, we come up short.
    Training budgets have been slashed to put more firefighters 
on the street. As a result, we are not receiving adequate 
training. The long-term impact will create a firefighting force 
that is ill-equipped to handle emergencies such as the train 
derailment or a future terrorist attack. More disturbingly, it 
will impact our ability to handle more everyday responses such 
as a normal dwelling fire. Like the military, training and 
preparation are key ingredients to a successful operation.
    An often forgotten-about component of response capabilities 
is communications. The Baltimore train derailment provides an 
example of the inadequacies of our communications system. Very 
candidly, firefighters operating inside of the tunnel were 
completely out of radio communications with the outside units 
and command center except when you got down near the tunnel, if 
you will. Essentially we were on our own. If you will take a 
look at the pictures provided, you must visualize being a half 
a mile inside a tunnel with heavy fire, confirmed hazardous and 
explosive chemicals, and smoke so thick that you could not see 
your hand in front of your face and knowing that no one knows 
where you are or even if you are alive or dead.
    The situation is not unique to this scenario. In many high-
rise and older buildings, we have several sub-basements. I 
traveled in one here in Washington this morning. In the hulls 
of container ships, and in large industrial complexes, the 
radios do not always work. Our safety and the efficiency of the 
operation are compromised.
    Like many other Americans, I have watched recent news 
accounts stating that firefighters operating inside the twin 
towers were out of radio communications with command. I also 
recall an article last spring prior to 9/11 detailing problems 
with the radio system in New York. I cannot help wonder what if 
there was a problem that could have been fixed. Would 343 of my 
brothers have died?
    Another major problem with respect to firefighter safety is 
the lack of personal protective clothing and equipment. As I 
stated earlier, I drive a ladder truck and function as a 
firefighter. I am not a chief officer or a budget person, so I 
do not know exactly how the money is gotten or where it goes. I 
do know that firefighters need to perform their jobs safely.
    Once again, I will use the train derailment as an example.
    Firefighters work in flame retardant clothing called 
turnout or bunker gear. These garments protect us against 
extreme heat and adverse conditions under which we work. In 
normal fires, they get completely soaked by water and become 
very heavy and cumbersome, weighing over 40 pounds. While 
inconvenient, this is part of the job.
    However, in incidents like the train derailment, 
firefighters are on the scene for days at a time. We have only 
one set of gear. By industry standards our gear should be 
decontaminated after exposure to hazardous chemicals. It is 
not. Firefighters who entered the tunnel and whose gear was 
exposed to PCB's, ammonium, and other carcinogens were forced 
to work in the same gear for days on end. Having a second set 
of gear would dramatically lessen possible long-term health 
hazards and possibly add to a longer life, if you will.
    At least in the Baltimore department, we have adequate 
self-contained breathing apparatus and pass devices to locate 
trapped members. Some departments do not. Technology exists 
through thermal imaging to locate and monitor firefighters 
operating inside any structure. If all departments had this 
technology, both firefighter and civilian deaths would be 
reduced dramatically.
    At the end of the day, the most important resource for fire 
departments is manpower. It takes firefighters willing and 
ready to go into a burning building to put out the fire and 
save lives. Madam Chair, in Baltimore we simply do not have 
enough firefighters to do the job. Consider this. When you 
served in the city council in the early 1970's, Baltimore had 
11 firefighting battalions, 55 engine companies, 30 truck 
companies, 2 hose wagons, 2 chemicals units, and 4 fire boats. 
Today the same city has 6 battalions, 33 engine companies, 19 
truck companies, 1 HAZMAT unit and 2 fire boats.
    When I came into the department in 1974, the hose wagons 
were gone, a chemical unit was disbanded, several engine 
companies had been closed, and Baltimore's Inner Harbor renewal 
project was being compromised by the dismantling of the Marine 
Division.
    A more contemporary and compelling statistic is that since 
1990 our suppression force, in terms of engines and trucks in 
service, has been cut by 26 percent. In that same period, our 
call volume has soared from almost 70,000 responses to 116,392 
responses. That is a 47 percent increase in responses. We do 
not have enough firefighters to do the job.
    Years ago, our fire department could handle multiple 
incidents at the same time and still have adequate resources to 
respond to other calls. Sadly today that is not the case. Two 
small fires occurring at the same time completely deplete our 
resources. Firehouse closings have created a situation that 
extends response time and threatens people's lives.
    To put the citizens' minds at ease, the city has instituted 
an interesting program called rotated closures. Essentially 
each day one firehouse is shut down and firefighters are 
dispersed throughout the city to man other companies. It is 
designed to save on overtime costs. However, the community is 
left unprotected. Since the residents still see a fire truck, 
they believe they are being protected. It is a sham.
    This occurs for one reason: lack of resources. And I am not 
here to debate whether firefighting expenses are a local, 
State, or Federal responsibility. I am here as a front-line 
firefighter and a taxpaying citizen who believes that 
protecting our citizens is government's responsibility.
    Across the country, fire departments need money to hire 
additional personnel. It is our most critical need.
    Madam Chair and members of the committee, you can address 
our issues. I ask you to fully fund the FIRE Act. Give 
America's firefighters the full $900 million that has been 
authorized and allocate half of that money to a staffing 
program. America's first responders need your assistance.

                           PREPARED STATEMENT

    The events of 9/11 have brought the needs of the fire 
service to the forefront. The greatest tribute that could be 
paid to our 343 lost New York brothers and Eric Shafer, the 
last Baltimore firefighter to die in the line of duty, is for 
Congress to provide the resources to allow America's 
firefighters to do our job safely and effectively.
    Thank you very much, and I will be available for questions.
    [The statement follows:]
                  Prepared Statement of Carlos Olaguer
    Madam Chair, members present, and guests.
    My name is Carlos Olaguer and I am a Baltimore City Firefighter.
    On July 18, of last year Baltimore City Firefighters responded to a 
train fire inside the Howard Street Tunnel, a tunnel built in 1895, 1.7 
miles long and directly beneath the heart of the city.
    My unit, Truck Company 26, located in the northeast part of the 
city responded on the 3rd alarm to the North entrance of the tunnel at 
Mt. Royal Avenue.
    Surrounding the north entrance are historic buildings and cultural 
centers which are a part of many great cities.
    Truck 26, was initially dispatched for additional manpower and 
rapid intervention and had several minutes to reach the staging area 
and prepare for the task at hand.
    First due fire companies, anticipating diesel smoke from the 
train's engine had no idea of the magnitude of the fire. The amount of 
smoke emanating from the north end of the tunnel was so thick and toxic 
that citizens above the tunnel had to be tended to and cleared from the 
area.
    The next morning Engine 27, also stationed with Truck 26, staged 
near the south entrance of the tunnel near Camden Yards. The south end 
of the tunnel is 1.7 miles from the north entrance and almost five 
miles from the station of Engine 27 and Truck 26.
    Prior to the tunnel fire seven fire companies were closed in 
Baltimore City. Six of these seven were closer to the tunnel fire than 
Engine 27 and Truck 26.
    Engine Co. 27 was to advance hose lines into the south end and 
attack the fire from within. The pump operator, stationed above ground 
with his wagon was responsible for maintaining water flow to the 
firefighters down below. He would position himself near the opening of 
the tunnel to try to maintain radio contact then retreat to the engine 
to make any adjustments needed. He would then return to his listening 
position. Although many attempts were made, Engine Co. 27 was unable to 
reach the train from the south entrance.
    Engine Co. 27 was later repositioned to a manhole opening directly 
above the still burning train. Through this opening firefighters came 
in direct contact with the burning train. Each firefighter entering the 
hole was now being exposed to direct heat and smoke and whatever 
chemicals were spewing from the train. Please keep in mind that the 
train had been burning for more than 24 hours at this point.
    On the 5th day of the tunnel fire, boxcars were finally removed 
from the tunnel and pulled to a remote location Near Fort McHenry. 
Truck Co. 26 was dispatched along with Aerial Tower 102 and Engine Co. 
14. The task at hand was to forcibly enter the boxcars and extinguish 
its contents. The process began on the day shift and my shift relieved 
on the scene at 1700 hrs (5pm.). We were subsequently relieved at 3 am 
and returned to our own station.
    It is important to note that similar operations were being done the 
north end of the tunnel.
    Madam Chair, the events I described placed the citizens and fire 
fighters of Baltimore City in great peril. The horrific events of 
September 11th brought new awareness and respect to our Nation's fire 
fighters. 9/11 forever changed this country. For fire fighters, we will 
never forget the heroism of our New York brothers and sisters and the 
ultimate sacrifice made by 343 dedicated fire fighters who died saving 
tens of thousands of lives.
    However, it would be mistake for this committee, or anyone else, to 
frame the needs of the fire service by the events of 9/11. Across the 
country, in communities large and small, fire fighters and paramedics 
answer the call every day. Whether it is a train derailment in 
Baltimore, a raging forest fire in the west or a vacant warehouse in 
Worchester Massachusetts, we respond. We serve. And, in all too many 
cases, we die.
    The sad irony is that in spite of our sacrifice and dedication, we 
simply are not provided with the resources and equipment to do our job 
safely and effectively. As municipal and county budgets tighten, the 
fire service becomes the unfortunate target of cuts. Our industry is 
hemorrhaging and we need your assistance now.
    I can only speak to needs of our Maryland fire fighters. Across the 
board, in every category in which fire act money can provide revenue, 
there are deficiencies. In training, equipment, apparatus, 
communications, safety and health issues and staffing, we come up 
short.
    Training budgets have been slashed to put more fire fighters on the 
street. As a result, we are not receiving adequate training. The long-
term impact will create a fire fighting force that is ill equipped to 
handle emergencies such as the train derailment or a future terrorist 
attack. More disturbingly, it will impact our ability to handle more 
everyday responses such as a normal dwelling fire. Like the military, 
training and preparation are key ingredients to a successful operation.
    An often forgotten about component of response capabilities is 
communications. The Baltimore train derailment provides an example of 
the inadequacies of our communications system. Very candidly, fire 
fighters operating inside of the tunnel were completely out of radio 
communications with outside units and the command center. Essentially, 
we were on our own. Take a look at the pictures provided. You must 
visualize being a half mile inside of a tunnel with heavy fire, 
confirmed hazardous and explosive chemicals and smoke so thick you 
couldn't see your hand in front of your face, and knowing that no one 
knows were you are or, even, if you're alive or dead.
    The situation isn't unique to that scenario. In many high-rise and 
older building that have several sub-basements, in the hulls of 
container ships, and in large industrial complexes, the radios do not 
always work. Our safety and the efficiency of the operation are 
compromised.
    Like many other Americans, I've watched recent news accounts 
stating that fire fighters operating inside the twin towers were out of 
radio communications with command. I also recall an article last 
spring--prior to 9/11--detailing the problems with the radio system in 
New York. I can't help but wonder: What if there was a problem and what 
if it could have been fixed, would 343 of my brothers have died?
    Another major problem with respect to fire fighter safety is the 
lack of personal protective equipment. As I stated earlier, I drive a 
ladder truck and function as a fire fighter, I'm not a chief officer or 
a budget person, so I don't know precisely what everything costs. I do 
know what fire fighters need to perform their jobs safely. Once again, 
I'll use the train derailment as an example. Fire fighters work in 
flame retardant clothing called turnout or bunker gear. These garments 
protect us against the extreme heat and adverse conditions under which 
we work.
    In normal fires, they get completely soaked by water and become 
very heavy and cumbersome, weighing over forty pounds. While 
inconvenient, this is part of the job. However, in incidents like the 
train derailment, fire fighters are on the scene for days at a time. We 
have only one set of gear. By industry standards, our gear should be 
decontaminated after exposure to hazardous chemicals. It isn't. Fire 
fighters who entered the tunnel and whose gear was exposed to PCBs, 
ammonium, and other carcinogens were forced to work in the same gear 
for days on end. Having a second set of gear would dramatically lessen 
possible long-term health hazards.
    At least in the Baltimore department, we have adequate self-
contained breathing apparatus and pass devices to locate trapped 
members. Some departments do not. However, technology exists through 
thermal imaging to locate and monitor fire fighters operating inside 
any structure. If all departments had this technology both fire fighter 
and civilian deaths would be reduced dramatically.
    At the end of the day, the most important resource fire departments 
have is manpower. It takes fire fighters willing and ready to go into a 
burning building to put out the fire and save lives. Madam Chair, in 
Baltimore we simply do not have enough fire fighters to do the job. 
Consider this, when you served in the city council in the early 1970s, 
Baltimore had eleven fire fighting battalions with 55 engine companies, 
30 truck companies with two hose wagons, two chemical units and four 
fire boats. Today, the same city has only 6 battalions with 33 engine 
companies, 19 truck companies, one HAZMAT unit and two fireboats.
    When I came into the department in 1974 the hose wagons were gone a 
chemical unit was disbanded, several engine companies had been closed 
and Baltimore's Inner Harbor Renewal Project was being compromised by 
the dismantling of the Marine Division
    A more contemporary and compelling statistic is that since 1990 our 
suppression force, in terms of engines and trucks in service, has been 
cut by 26 percent. In the same period, our call volume has soared from 
69,665 responses to 116,392, a 47 percent increase. We don't have 
enough fire fighters to do the job.
    Years ago, our fire department could handle multiple incidents at 
the same time and still have adequate resources to respond to other 
calls. Sadly, today, that isn't the case. Two small fires occurring at 
the same time completely deplete our resources. Fire house closings a 
have created a situation that extends response time and threatens 
people's lives.
    To put the citizens' minds at ease, the city has instituted an 
interesting program called ``rotating closures.'' Essentially, each day 
one firehouse is shut down and the fire fighters are dispersed 
throughout the city to other companies. This is designed to save on 
overtime costs. However, a community is left unprotected. Since the 
residents still see a fire truck, they believe that they are protected. 
It's a sham.
    This occurs for one reason: lack of resources. I am not here to 
debate whether firefighting expenses are a local, State or Federal 
responsibility. I am here as a frontline firefighter and a taxpaying 
citizen who believes that protecting our citizens is government's 
responsibility.
    Across the country, fire departments need money to hire additional 
personnel. It is our most critical need.
    Madam Chair and members of the committee, you can help address our 
issues. I ask you to fully fund the FIRE Act. Give America's fire 
fighters the full 900 million that has been authorized and allocated 
half of that money to a staffing program. America's first responders 
need you assistance.
    The events of 9/11 have brought the needs of the fire service to 
the forefront. The greatest tribute that could be paid to our 343 lost 
FDNY brothers and Eric Schafer, the last Baltimore fire fighter to die 
in the line of duty, is for Congress to provide the resources to allow, 
America's fire fighters to do our job safely and effectively.
    Thank you and I'll be happy to answer any questions.

                        URBAN SEARCH AND RESCUE

    Senator Mikulski. Thank you very much, Mr. Olaguer.
    I am going to ask a few questions and then turn to my 
colleagues and then move to the next panel.
    First of all, that was outstanding testimony. I would like 
to thank each and every one of you. It was exactly the kind of 
testimony that the committee wanted to hear, kind of what are 
the basics that we need to do. I know that as each and every 
one of you are at this table, you are representing thousands 
who are depending on you to articulate these issues. And we 
will be hearing from the leadership of the professional 
associations and the firefighters union.
    Mr. Paulsell, I would like to just ask a question of you in 
terms of the urban search and rescue issues and then go to you, 
Assistant Chief Morris, and then move with my colleagues. I 
want to be sure they have a chance.
    We have these 28 FEMA units. Chief, you outlined what you 
needed from FEMA. Chief Morris, when I went to the Pentagon and 
you were there, is Chevy Chase not one of the 28?
    Mr. Morris. No, Senator. Montgomery County is home to one 
of the 28 teams. The rescue squad is not part of that unit.
    Senator Mikulski. Could you reiterate, in terms of a must-
do list, what we need to do to really be able to strengthen 
these 28 units? You referred to them as the special forces of 
the firefighting community. And then I want to go back to the 
firefighters. What do you think specifically, if you had three 
things that you felt that by the time we finished our 
appropriations in October, we actually had money in the Federal 
checkbook, not wish lists or dream teams, are the three things 
we could do to maximize your potential?
    As I understand your testimony, there might be a desire in 
Congress to say, well, if we have got 28, let us double it. 
That is the way Congress talks when they want to show they want 
to do something. Let us double and go to 56. You have a 
different point here.
    And also, what do you need from FEMA for urban search and 
rescue? Then we are going to go to the firefighter grant 
program.
    Mr. Paulsell. Good question.
    The first thing we need to do is complete the equipment 
caches, the basic urban search and rescue equipment cache for 
each one of those task forces so that when they go out the 
door, they go out the door with all the equipment that they 
need to effect search and rescue safely and thoroughly.
    Senator Mikulski. Working with the task force, what do you 
think that is?
    Mr. Paulsell. I think to completely fill out the equipment 
caches for these task forces, we are talking around $1 million.
    Senator Bond. Each?
    Mr. Paulsell. No, in total.
    Senator Mikulski. $1 million?
    Mr. Paulsell. That will complete the equipment caches.
    Senator Mikulski. But that is not your equipment. That is 
what you have stored. What do you mean by equipment caches?
    Mr. Paulsell. Each task force goes out the door with about 
$1.8 million worth of equipment. The equipment cache is 
predetermined by FEMA.
    I am sorry. I misquoted. It is $10 million. I am looking at 
my notes here.
    Senator Mikulski. You caused a collective gasp here.
    Senator Bond. Chief, you cannot come before an 
appropriations committee and only ask for $1 million.
    Mr. Paulsell. Is $10 million better? I'm sorry.
    Senator Mikulski. My little lungs gasped. That is why I am 
coughing.
    Senator Craig. He has just learned his lesson.
    Mr. Paulsell. I will never, ever do that again, Senator. I 
promise.
    Mr. Paulsell. $10 million to fill out the existing 
equipment caches so that they have all the equipment they are 
prescribed to have.
    The second thing we need to do is provide annual grant 
funding in excess of $150,000 a year to keep that equipment 
cache current, keep the training up, and we are talking about 
around $1 million per year per task force. That would be an 
annual recurring fund.
    The third thing we need to do is equip all of these task 
forces immediately so that they can operate in an environment 
of weapons of mass destruction. If, as an example, a dirty bomb 
was detonated in Kansas City, Missouri, we would be called upon 
to effect search and rescue operations. We do not have the 
chemical and biological protection necessary to do that safely 
and protect our people.
    Senator Mikulski. Is that both training and equipment?
    Mr. Paulsell. Training and equipment, right.
    What we would like to see from FEMA is a program priority 
set within FEMA so that they have sufficient staff and they 
have sufficient agency focus to be responsive to this program 
so that we do not get caught up in what we all call bureaucracy 
and we can move along quickly. We have a number of systems in 
place where participants in this program freely give of their 
time to participate in working groups and committees to develop 
training standards and performance standards and so on, but we 
get caught up in, it seems like, tiers and tiers of approval 
within FEMA to get this out the door. And time, more now than 
ever, is of the essence and we need to move this program along 
and get the necessary support from the agency.
    Senator Mikulski. Well, I want to come back to this tiers 
and tiers and layers and layers of bureaucracy. We do not want 
tiers and we do not want to shed tears. That is kind of our 
goal.
    This is a touchy subject and I really turn to you and 
others on the panel. The way FEMA is set up is to work through 
Governors, which is fine because we are talking about the 
response. FEMA was originally set up to respond to natural 
disasters in which a Governor had to declare an emergency and 
FEMA would come in with money. It would not come in to fund 
people directly, except the hazards people, the FEMA people, 
the emergency management people.
    Here this is local control. These are local firehouses. 
This is done through States not only the rescue. These are 
cities. These are communities. These are independent. If you 
are a volunteer fire department, you are an independent unit. 
Am I right, Assistant Chief Morris?
    Mr. Morris. Well, we in Montgomery County operate in a 
system where it is a series of 19 fire rescue departments that 
are providing service to Montgomery County. Like I said 
earlier, Montgomery County is home to one of these FEMA teams.
    As an incident commander in the field, I have many of these 
resources from that team at my disposal if I want them. So, an 
investment in those FEMA teams is also an investment in the 
resources available to the local community.
    Senator Mikulski. Yes, but now I want to switch to the Fire 
Grant program and then turn to my colleagues.
    I believe in local control, local decision making, and not 
trickle-down money to you. I am afraid it will get all caught 
up in a lot of bureaucracy, that the coordinators who do not 
communicate any better than your radio equipment works for you, 
that the money just gets all tied up in bureaucracy and sign-
offs, one page at a time.
    So, my question would be, number one, do you believe the 
money should come directly to the urban search and rescue teams 
and come directly, in the Fire Grant program to local 
departments? Or do you believe it should go through the State 
and then be allocated and then you apply there?
    Mr. Morris. Senator, I would advocate it going to the local 
departments directly. One of the things I was impressed with 
about the Fire Grant program was the process for applying 
seemed to be simplified so that many local departments could 
not only submit a grant proposal, but then there was a peer 
review process that we felt streamlined the operation and made 
it very easy and in very short order for that money to be 
awarded. We support the peer review process and a continuation 
of the program. The fewer steps you take out of it, the faster 
it is going to reach the citizens.
    I will just give you one example. Montgomery County is 
still trying to make purchases from a Justice Department grant 
that is 3 years old, and it has just been mired in red tape.
    Senator Mikulski. Well, we want to hear more about that.
    One last question. When those radios failed, what was the 
means of communication with our firefighters? What would be the 
single most important thing we should direct FEMA to focus on 
in terms of protection for the local firefighter?
    Mr. Olaguer. As far as communication was concerned----
    Senator Mikulski. We watched you. All of Baltimore and I 
think all of America was pulling for you. But pulling for you 
is one thing, but you being out in PCB-saturated clothes every 
day deserves a lot better attention here.
    Mr. Olaguer. I would think so.
    Standard communication was difficult between the guys above 
ground trying to monitor their people under the ground. What 
looked like a good time for everybody--and the TV cameras were 
up and the public information officer was saying we have 
everything under control--was above ground. Underground, the 
best example I can give is we had one individual who was lost 
in the tunnel. We did not know if he had one person, four 
people, five. We had no idea where he was. He was in the north 
end of the tunnel. Baltimore County units were dispatched and a 
cave-in unit was dispatched. Other units just showed up who 
were monitoring our radio and happened to show up at the scene, 
and then confusion, of course, ensued because there was no 
command structure organized with the other jurisdictions. It 
really was a tense and strained situation at one time.
    The next thing we know, here came a car full of the people 
we thought were trapped. Of course, they were overcome and had 
to be tended to by medic units, but no one knew where he was, 
how he was, what was going on because we could not hear what he 
was saying and they could not hear what command was saying up 
top.
    And that was an incident that was featured in the morning 
paper the next day with--I do not have a picture here. But I am 
saying that was the feature that morning in the morning paper, 
was this group that went in. No one had contact with him.
    You literally need technology and advances in setting up 
communication relay systems, antennas in particular buildings 
and tunnels and areas like that. That is just one small 
improvement just on the communication side.
    Senator Mikulski. Thank you very much.
    Senator Bond, why do I not turn to you and then Senator 
Craig?

                              TASK FORCES

    Senator Bond. Thank you, Madam Chair.
    To follow up with firefighter Olaguer's comments about the 
need for better communications equipment, I asked a rather 
simple question yesterday of acting FEMA Regional Administrator 
Paccino in New York City, and I said why did you not have a 
structural engineer or a specialist who could advise and warn 
the command staff and the firefighters about the danger of 
collapse. And the chilling response was, we did. We could not 
communicate it. And to me that was one of the most chilling 
things I learned. Madam Chair, obviously communications and 
command structure are very important.
    Let me turn back to Chief Paulsell. It appears that the 
Chair has seen the set-up questions that the Chief gave me to 
ask.
    Senator Bond. But I will follow up with some of the ones 
that you did not ask, Madam Chair.
    Is there a need for the task forces perhaps to deploy 
overseas? What would need to happen and what is the need there?
    Mr. Paulsell. Well, presently out of the 28, there are 2 of 
the existing task forces that have a prearranged agreement with 
the Office of Foreign Disaster Assistance to the Secretary of 
State's Department. Our concern there is that as we tighten up 
our borders here in the United States, we have vulnerability 
overseas in our assets there, as do our allies. And we have 
seen some deployments to some terrorist attacks at some of our 
embassies and Marine barracks and those sorts of facilities in 
the past.
    We would like to see our Government move forward to 
facilitate a broader response from these task forces, 
particularly in light of the fact that we have a number of them 
on the west coast that can deploy much quicker going to the 
west. That involves some additional logistical support and 
supplies to support us overseas, passports, immunizations, that 
sort of thing, and just some prior planning and some funding. 
And I quite frankly do not have those numbers here today.
    Senator Bond. Senator Mikulski raised a question and I was 
not clear about your answer. Is there a need for additional 
task forces in the system?
    Mr. Paulsell. We believe that the task forces that 
presently are in place are probably underutilized. In a way 
that is fortunate because that speaks to the number of 
disasters that we respond to. But on the other hand, that makes 
it difficult for us to maintain skills and currency and that 
sort of thing. So, those task forces within the system do not 
see a need to expand. If there was an identified need through 
some sort of threat assessment, quite frankly by doubling the 
equipment cache in the existing task forces, you could double 
your capacity without adding extra training and personnel.
    We have to maintain a current roster staff of 186 to ensure 
that we are three deep in each one of the 62 positions to 
ensure around-the-clock availability. Once that initial wave of 
62 go out the door, within 24 hours every one of these task 
forces could field another team of 62 if we had the equipment 
to go.
    Senator Bond. So, in other words, you have the personnel. 
You have essentially three full task forces, but you only have 
equipment for one.
    Mr. Paulsell. For one.
    Senator Bond. And if there is a need for additional teams 
to be in the field, it would seem that the simplest thing is to 
provide double equipment so that at least two teams of each 
task force could go out, obviously keeping one back.
    Mr. Paulsell. That is correct.
    Senator Bond. But you train all 186. Just with an 
additional level of equipment, you can maintain it.
    Mr. Paulsell. That is right.

                        URBAN SEARCH AND RESCUE

    Senator Bond. What other areas in FEMA's urban search and 
rescue response system need attention?
    Mr. Paulsell. Well, I think we have touched on most. I 
think there is probably a need to address transportation 
assets. Presently most of us have to rely on renting trucks and 
buses to get out the door to get to our point of departure at a 
military air base. We are concerned about our ability to do 
that. We could be out the door quicker if we had the funding 
levels to support a ground transportation system.
    Secondarily, we are a little bit concerned also, as we 
continue the war on terrorism, about the availability of 
military airlift resources. Our planes are going to be busier 
in the military and may not be readily available to get us 
across the country. If we had ground assets preloaded, ready to 
go that were dependable and not dependent on using excess or 
surplus property equipment that we get through the Federal 
excess program, that costs a lot of money to maintain and is 
not very dependable, we could be on the road and moving quicker 
than we are.

                         UTILIZATION OF ASSETS

    Senator Bond. It seems to me that this is an area where 
Governor Ridge can perhaps bring some more coordination and 
resources. We are blessed in Missouri with a lot of C-130's. 
Maybe we will even get some C-17's at some time. I know the C-
130's came and picked you up at Whiteman. But when we are 
combining the homeland defense, it would seem reasonable.
    But let me ask you. We have some technical capabilities at 
Fort Leonard Wood, Missouri, chem/biological response. We have 
National Guard. How do you see the broader scheme that we could 
utilize the resources we have from the Doctrine and Training 
Command in Fort Leonard Wood, the National Guard, and the urban 
search and rescue task forces? Is there not potential for a 
much more effective utilization of all these assets together?
    Mr. Paulsell. Certainly. There are some concerns that I 
have kind of beyond the realm of the task force program. The 
military has put forth a great deal of emphasis on weapons of 
mass destruction research, training, and capability. Through 
the National Guard program, they have established civil support 
teams across the country to respond to domestic acts of 
terrorism involving chemical and biological warfare. I really 
have some questions and some doubts as to the effectiveness of 
those teams long term and, quite frankly, right now their 
availability because we are at war and military assets are 
primarily used in that regard as well.
    My fellow panelists here this morning spoke about the 
challenges faced at the first responder level. If those 
resources and those capabilities are available within the 
military structure, then clearly they need to be made available 
to the first responders of this country in terms of training 
and research and assistance and support and not kept purely 
within the military establishment. The chemical weapons school 
at Fort Leonard Wood, Missouri is an incredible and developing 
resource that should be made available to firefighters, not 
only task forces but firefighters across this country. What 
comes of that and what is learned in that process needs to be 
shared and it cannot only exist on a military base. There has 
to be a disbursal program that can be taken to the Senator's 
State out west and not rely necessarily on him transporting all 
these firefighters to a military installation.
    I think there is a marriage there and the National Fire 
Academy is a good model of that of how they have done a hand-
off package. But I think we need to get these people married 
up, the military establishment and the intelligence 
establishment and the people on the front line of this war that 
we are facing, and get that information and that material and 
that training and capability to the local level and get it to 
the street quickly.
    Senator Bond. Madam Chair, if I just may make one 
additional point we had talked about earlier. Training, the 
protective equipment, chemical or biological or nuclear, but 
when there is an incident involving one of those, detailing the 
military specialists to join, if they are specialists in chem 
attack or specialists in biological or specialists in 
radioactive management, would seem to me to be helpful, if they 
were available from the military, to assist in a command and 
advice structure to a USAR task force.
    Senator Mikulski. I think that is very interesting. We are 
going to be having Joe Allbaugh, apart from the overall FEMA 
budget, just on this topic and the FEMA role in homeland 
security, as well as all the other things FEMA has to talk 
about. An excellent point.
    Are you done, Senator?
    Senator Bond. Yes, thank you.
    Senator Mikulski. Senator Craig.
    Senator Craig. Madam Chairman, first of all, let me thank 
you for this hearing and let me ask unanimous consent that my 
opening statement be a part of the record.
    Senator Mikulski. Absolutely, without objection.
    [The statement follows:]
               Prepared Statement of Senator Larry Craig
    Madam Chairman and Senator Bond, thank you for holding this very 
important hearing on issues that affect our nation's fire fighters.
    These brave men and women put their lives on the line to serve and 
protect their communities--not only on September 11, but every day. 
Time after time, they are the first on the scene to respond to an 
emergency.
    Now today, in the fight against terrorism, we are again turning to 
fire fighters as the first line in our homeland defense. And while we 
owe them a debt of gratitude that we could never repay for taking on 
this difficult and dangerous job, gratitude is not enough. It is 
critical to their safety, as well as the safety of the communities they 
protect, for them to have access to adequate resources in the way of 
equipment, training, and personnel.
    I have spent a lot of time talking to the fire fighters in my state 
of Idaho, both the volunteer and career forces. While I understand the 
terrible threat that terrorism poses in an urban setting--I visited 
both ground zero in New York City and the Pentagon--I hope my 
colleagues will keep in mind that the largely rural, public lands 
states of the West, like mine, present special challenges in fire 
fighting that equally deserve Congressional attention.
    Let me thank the witnesses who have agreed to share their expertise 
with us today. I look forward to hearing your testimony and your 
suggestions as to how we might better support the fire fighters across 
our country.

                    NATIONAL INTERAGENCY FIRE CENTER

    Senator Craig. Let me make a couple of observations because 
time is an issue with me here, and I apologize.
    We have the privilege in Boise, Idaho of hosting the 
National Interagency Fire Center which is a cache deployment 
facility both for equipment and personnel for fires within the 
Forest Service, BLM, Park Service, Bureau of Rec, Madam 
Chairman, you name it. It also deploys caches of equipment and 
material to FEMA at times of national emergency.
    Madam Chairman, I heard the Chief mention this, talking 
about relationships of resources and bringing them together. I 
think we need to be very cautious about recreating anything. 
The FEMA model and these task forces that have been mentioned 
here today are a model that we looked at 2 years ago following 
the catastrophic fire events in the west of that summer, to see 
where we could find resources of knowledge and training to 
bring into the Federal firefighting system, both for the Forest 
Service and the BLM, because we ran woefully short of trained 
people to take crews into the fires and all of that and we ran 
short of equipment.
    As you know, Senator Pete Domenici and I and others led 
that charge to get more money into that, echoing remnants of 
the Los Alamos issue and others, and we were successful in 
that.
    What I found out during that time is there is phenomenal 
talent that is out there, but that it is segregated and 
oftentimes independent of others. And they do not communicate 
well, nor do they cross-train, nor do they share. And shame on 
us.
    I think 9/11, hopefully, and the role of Tom Ridge and 
others and our response to it can begin to break down these 
barriers not only of information and training and sharing--I do 
not deny the argument of additional equipment and modern 
equipment and updates and adequate uniforms and all of that 
kind of thing. That clearly is necessary. But what I have found 
over the years in watching the Interagency Center in Boise, as 
its role adjusts and changes and spreads, it is not just a 
firefighting center anymore, it has ready caches on hand to 
immediately load on an aircraft and get to a hurricane upon a 
FEMA request. We have some excellent models if we will begin to 
share them and integrate them, along with the additional 
resources to make that happen and the complement of training. 
So, your hearing is very timely in that respect.
    I am also pleased to hear the chief say we may not need any 
more of these top quality response task forces as much as we 
need the training and the material and the equipment, and as 
you mentioned, the ability with stashes of equipment to bring 
the second team out and the third team out of these trained 
folks. That makes a lot of sense to me based on the experience 
I have had in observing this.
    We have also, both in the professional firefighter and the 
volunteer firefighter range, with the resources that we put 
together 2 years ago, additional training, a higher level of 
professionalism. It was clearly there with the professional 
full-time firefighter. The volunteers did their very best on 
even increasingly limited resources as you moved out to the 
smaller community to the county that was much more rural, and 
at the same time, we find all of a sudden cast into the role of 
having to participate or having to be the first responder in a 
chemical spill of magnitude, 75 to 100, even 300 miles away 
from an urban-based, broader-talented, oftentimes more 
resourced team. So, it is clear across the board that we really 
need to beef up in these areas.
    I guess those are general observations that I would make 
and take no more of the committee's time.
    On a personal note, Madam Chairman, I am going to not be 
able to be here for the next panel, but Mr. Harold 
Schaitberger, General President of the International 
Association of Firefighters. Who is this person out here? We 
have not met. This gentleman here. He and I have been at cross 
purposes for the last several months, not with my intent. That 
came as a result of a debate on the floor and a position paper 
that the Republican Policy Committee put out some months ago. 
As you know, we had that debate on the floor on a Daschle 
amendment some time ago.
    Harold, I have a letter that I want to hand-deliver to you 
as I leave the room. But I also want to look you straight in 
the face and apologize that it was not my intent by a headline 
in a paper that was published to impugn the integrity of you or 
any of the high quality professional firefighters of this 
Nation. Certainly that was not my intent.
    The substance of the paper produced under the headline did 
not do that. It talked about the differences and policy and 
priority and relationships of State to Federal Government. But 
tragically enough, the headline did and could have been and you 
did interpret it to impugn the reputation of the people you 
represent. So, I wanted you to hear it first and foremost from 
me that that was not my intent and I apologize to you for that.
    We are here united as a Congress, Democrat and Republican, 
to make sure that we amplify the role you play, the role that 
your people play, both professional and voluntary, and do so 
not just with words but with resources so that we can build 
even better first responder teams of men and women who put 
their lives on the line as the first people to the incident.
    So, I wanted you to hear that from me because I am not 
going to be able to stay and listen to your testimony. I will 
read that testimony.
    And I thank you very much, Madam Chairman, for getting this 
group before us today. We have a lot of work to do in this 
area. We do not have time to reinvent, but we certainly have 
time to break down the barriers and begin a greater cross 
reference of material and training that I think brings us 
together in a first responder homeland defense mode that 
clearly this country needs. Thank you.
    Senator Mikulski. Thank you very much, Senator Craig.
    We are really now going to have to turn to our panel 
because we have to adjourn no later than 1 o'clock. We want to 
thank everybody. Certainly what you had to offer has been 
excellent.
    I know you want to say one more thing, but could you come 
around and say that to me while everybody comes up?
    Mr. Olaguer. Okay.
    Senator Mikulski. Can we call up the leadership? I think 
this is a very good way to begin.
    We want to welcome each and every one of you. First of all, 
the first panel was just excellent. I think they gave it to us 
from really a hands-on, on-the-ground perspective. But I know 
that each and every one of you represents the leadership of 
America's firefighting community. So, I want to turn to you 
now.
    We have Mr. Harold Schaitberger, who is the President of 
the International Association of Firefighters; Mr. Philip 
Stittleburg, who chairs the National Volunteer Fire Council; 
and of course, Chief John Buckman, who is the head of the 
International Association of Fire Chiefs. We feel with you 
three, you really represent the core leadership of America's 
firefighting community and each from a different perspective, 
and we welcome that.
    I would like to turn now to really a long-standing friend. 
Harold Schaitberger and I go back a very long time. When we 
started this firefighter caucus, I was in the House of 
Representatives, and for some time we have been concerned about 
those issues. Of course, after the horrific events of 9/11, we 
knew all that you were facing.
    But rather than me talking, let us start with you, Mr. 
Schaitberger, and then just go right down. We are happy to take 
your testimony. Please be candid tell it like it is. No holds 
barred. We want straight talk and fast action.
STATEMENT OF HAROLD SCHAITBERGER, GENERAL PRESIDENT, 
            INTERNATIONAL ASSOCIATION OF FIRE FIGHTERS
    Mr. Schaitberger. Madam Chair, thank you very much. I 
really do appreciate the opportunity to appear before you and 
the members of this subcommittee on behalf of our Nation's 
career firefighters. As General President of our international 
union, I really have the privilege and honor of representing 
more than a quarter of a million professional firefighters and 
paramedics in this country of ours.
    And it is no exaggeration. We have all watched and felt and 
have spoken in our own personal ways about the horrific acts of 
September 11. It has been said it has certainly changed this 
world of ours. It was an absolutely tragic day for our Nation. 
It was a catastrophic moment for thousands of innocent 
civilians, but I have to tell you that for our profession and 
my union, it was absolutely our darkest day. The 343 FDNY 
firefighters who made that ultimate sacrifice and worked, along 
with their colleagues, brothers and sisters, to try to save--
and in fact, saved--tens of thousands of civilians from the 
hellish carnage of the World Trade Center were my members. The 
343 families that they left behind, the 631 children are an 
extension of my union's family, and we will be continuing to 
deal with and supporting and handling those issues.
    My focus today is also on the thousands of my members who 
made the immediate response to the terrorist attacks both in 
New York and at the Pentagon. For over 100 years, IAFF members 
have been protecting the citizens of our Nation from all 
hazards. They are the first on the scene when there are 
incidents involving fire, natural disasters, hazardous material 
incidents. They are our Nation's primary providers of emergency 
medical care. They are the ones who do search and rescue 
individuals that are trapped and in danger. They perform the 
high angle rescues that we hear about, the confined space 
rescues. They do water rescues. They are truly dedicated and 
skilled in so many ways. And now, in addition to these 
traditional responsibilities, they are also on the front lines 
in our war against terrorism that is being carried out on this 
country's soil.
    If we are going to be successful in fulfilling both our 
traditional mission and our newest responsibility, we must have 
adequate resources. It really is that simple. Sadly, as we meet 
here today, we simply do not have adequate resources. We have a 
need for additional firefighters, more training, more 
equipment, and this cannot just be borne by our local 
communities any longer. The Federal Government must step up and 
must begin to shoulder this burden.
    It was just over 1 year ago when Congress took the historic 
step of creating the Nation's first real program of direct 
assistance to local fire departments. And this, unfortunately, 
only after decades of our Federal Government not only 
recognizing, but providing hundreds of millions of dollars, 
rightfully so--the responsibility and fiscal responsibility 
that our Government recognizes--to support our Nation's law 
enforcement and education needs. Our Nation's fire service 
needs are no less important.
    We are pleased to report to you that the FIRE Act was a 
success. The down side, very straightforward, very candid. 
Simply not nearly enough money. It was not enough funding to 
even begin to meet the needs expressed by our fire services 
throughout this country.
    Madam Chair, we are well aware--and we congratulate you and 
the vital role you played and members of this great body in 
funding the FIRE Act at $360 million for the current fiscal 
year. We appreciate the administration's new homeland security 
initiative, and I have had the pleasure of meeting and spending 
time with Governor Ridge and with Director Allbaugh to talk 
about the real needs.
    But we are also concerned, as much as we applaud what we 
see in the budget initially and what we hear in the words about 
homeland security, as to whether these resources are really 
going to be able to meet where the tire meets the road, and 
that is down to the fire department for actual training and 
actual equipment for our Nation's first responders.
    The FIRE Act and the President's proposal for homeland 
security in my view really should only be the beginning. We 
must undertake a comprehensive effort to ensure that every fire 
department in America has the personnel, training, and 
equipment that it needs to safely and efficiently and 
effectively protect our Nation's citizens.
    Madam Chair, a vibrant, strong, and effective fire 
department response is built on three very straightforward 
foundations: an adequate number of firefighters on each piece 
of apparatus responding, proper training, and the right 
equipment. If you shortchange it and take just one away, you 
are going to allow the entire structure to potentially 
collapse.
    The first and foremost need of the fire service is adequate 
personnel. All the training, all the sophisticated equipment is 
not really worth much if we are not going to have an adequate 
number of firefighters deployed at the scene to do the job. 
Across our Nation, two-thirds of all fire departments, large 
and small, are operating with inadequate staffing. In your own 
State, Madam Chair, the overwhelming majority of the fire 
departments operate with two and three firefighters assigned to 
a piece of apparatus. That is below the international consensus 
standard and OSHA regulations for safe fire ground operations 
issued by our own Department of Labor.
    In earlier testimony, as we have heard from my brother 
Carlos Olaguer, the City of Baltimore is simply in a dire 
situation. But it does not stand alone. In nearly every other 
jurisdiction in Maryland, the problems are also evident. Prince 
George's, Howard, and other Maryland jurisdictions, counties 
that should be capable and should be able to provide sufficient 
personnel simply are not. These departments are riding with two 
and three firefighters, which I believe is dangerous to our 
people and which should be unacceptable to this Congress and to 
our Government and certainly below our national standard.
    And in Missouri, Senator Bond, fire departments throughout 
the State, including the capital and St. Louis County do not 
meet the minimum staffing requirements in this country.
    Congress would never allow our military to engage in a war 
with two-thirds of its divisions understaffed, but incredibly 
this is exactly what we are asking our local fire departments 
to do. Whether it is through the FIRE Act or some new fire 
staffing initiatives, we ask this committee to provide the 
resources to ensure that every fire department in America has 
the minimum staffing it needs to respond to emergencies safely 
and efficiently. We encourage your committee to fully fund the 
FIRE Act at $900 million and to dedicate $450 million of that 
money towards staffing.
    The second need of the fire service is training. Far too 
many jurisdictions lack the funds to hire training instructors, 
purchase training equipment, or have access to training 
facilities and are unable to provide new firefighters with even 
basic level training.
    While basic firefighter training is needed by so many of 
our members, all firefighters I believe now need advanced 
training in HAZMAT and weapons of mass destruction response and 
mitigation. Terrorism, using weapons of mass destruction, is no 
longer a theory. We have experienced it, and it is now a 
constant threat to our Nation. September 11, Oklahoma City, and 
other terrorist acts have demonstrated that these madmen will 
employ appallingly unthinkable measures to achieve their goals.
    In fact, just a few short weeks after September 11, our 
Nation experienced its first biological terrorism when anthrax 
was mailed, targeting leaders and members of this great body 
right here, in a building that is just next door, as well as 
our media. And during those frantic days in October, thousands 
of frightened Americans called their local fire departments to 
report suspicious white powder incidents, quickly overwhelming 
the capability of the few dedicated HAZMAT crews that we have. 
And as a result, it was front-line firefighters who responded 
to these calls, far too many of whom lacked any HAZMAT 
training. It is now clear that all firefighters need operations 
level hazardous materials and weapons of mass destruction 
response training.
    The members of this committee can begin to address this 
training shortage by fully funding the FIRE Act.
    Additionally, this committee has jurisdiction over two 
innovative HAZMAT programs. From the vantage point of front-
line emergency responders, two components of HAZMAT that are 
doing the job now, that do the job and train our people in 
their own jurisdictions. And the advantage of that is self-
evident because training for terrorism in your own community 
allows first responders to not only learn the tactics and 
methods of effective response, but also to apply these 
hypothetical concepts to concrete targets in their 
jurisdictions.
    I am proud to note that the IAFF is also in partnership 
with EPA and NIEHS which offers training programs to fire 
departments throughout this Nation.
    A third foundation, equipment. A lot has been said today 
about equipment, and I would simply say that of the 30,000 FIRE 
Act grant requests submitted last year, over 27,000 were for 
just three categories: personal protective gear, firefighting 
equipment, and vehicles. Less than 5 percent of those grant 
requests were awarded. And I had members who were part of the 
group that evaluated the requests, and they were appalled and 
it broke their heart to turn down requests to replace 15-year-
old turnout gear, and they only turned down those requests 
because there were departments that were even more dire in 
need.
    As my organization has become more increasingly aware of 
weapons of mass destruction response, I am convinced that we 
really have a threat, and I do not believe the threat is 
necessarily by nuclear devices launched by foreign Nations nor 
necessarily by tactical nuclear weapons in a suitcase being 
walked around by cells, although, God forbid, those are threats 
that we have to be focused on. I believe the real threat is 
dirty bombs and we have heard the term ``dirty bomb'' 
mentioned. It is a very simple device with catastrophic 
results. You simply take a conventional explosive, ammonium 
nitrate and fuel oil like in Oklahoma City, dynamite, and then 
introduce radioactive material to it. You can have a 
catastrophic incident.
    And our first responders, our Nation's firefighters who are 
the first that are expected to be on that scene, are not now 
properly trained to identify nor do they have the equipment to 
even attempt to determine whether it is a radioactive incident. 
And all the wonderful military ops and all the special 
operations are just terrific, but that is 4 hours, 5 hours, and 
how many more hours later while we have our people on the front 
line doing their job and they need the ability to do it 
correctly.
    So, in conclusion, Madam Chair, let me just say that I 
would ask you and the distinguished Members of Senate, starting 
with this committee, to please fully fund the FIRE Act, to 
provide the resources directly to the fire departments, to 
ensure that these resources are not siphoned off by levels of 
government, but get to the departments where it is needed.

                           PREPARED STATEMENT

    I see a lot of attention about prevention components, 
intelligent and prosecution components, and treatment 
components by all these threats. Every one starts with the 
possibility of an incident or an actual incident, and it is 
firefighters who will be there first. We need your help.
    [The statement follows:]
              Prepared Statement of Harold A. Schaitberger
    Madam Chair. I appreciate the opportunity to appear before this 
subcommittee today on behalf of the Nation's professional fire 
fighters.
    My name is Harold Schaitberger, and I am the General President of 
the International Association of Fire Fighters (IAFF). I started my 
career in 1966 as a fire fighter with the Fairfax County, Va., Fire and 
Rescue Department and I now have the honor of representing more than 
245,000 professional fire fighters and paramedics who protect 80 
percent of our Nation's population.
    It is no exaggeration to say that September 11, 2001 completely 
changed the world. The 343 firefighters, who made the ultimate 
sacrifice that day and rescued tens of thousands of civilians from the 
hellish carnage of the World Trade Center tragedy, are my brothers, as 
are the thousands of fire fighters who responded to the terrorist 
attacks in New York and at the Pentagon.
    While the horrific event brought public recognition and acclaim to 
our profession and membership, the mission of the fire service remains 
unchanged. Before and after September 11, America's Bravest are the 
country's first responders. Each and every day, they risk their lives 
protecting communities across our Nation.
    Madam Chair, I come before this subcommittee as a man on a mission 
to build a living memorial to these fallen heroes. In tribute to them, 
and to provide for our common security, the IAFF is dedicated to 
improving homeland security, enhancing the safety of our Nation's fire 
fighters, and ensuring that our Nation's fire service is prepared to 
respond to any and all challenges we may face in the future. The 
question isn't if another terrorist attack will occur, but when and 
where.
    For nearly 100 years, IAFF members have been protecting the 
citizens of our Nation from all hazards. We are the first on the scene 
when there are incidents involving hazardous materials, we are the 
Nation's primary providers of emergency medical care, and we are the 
ones who search for and rescue people who are trapped and in danger.
    And now, in addition to these traditional responsibilities, we are 
also at the frontlines in the war against terrorism. For firefighters, 
every day is September 11. Every time the alarm goes off, my members 
steel themselves to the possibility that they are responding to the 
latest act of terror. In the past, America's domestic warriors, our 
fire fighters, have had to respond to isolated incidents. In this new 
world, our fire and emergency medical services need to be prepared for 
a coordinated, well-orchestrated series of attacks on American 
citizens. In this first war of the 21st Century, the battle lines are 
drawn in our own communities and firefighters are, and will continue to 
be, our Nation's first line of defense.
    If we are to be successful in fulfilling both our traditional 
mission and our newest responsibilities, we must have adequate 
resources. Sadly, as of today, we do not. The need for additional 
firefighters, training, and equipment is tremendous and it can no 
longer be borne solely by local jurisdictions. The Federal Government 
must help shoulder this burden.
                           existing programs
    It was just over one year ago when Congress took the historic step 
of creating the Nation's first program of direct assistance to local 
fire departments. The FIRE Act was created in the closing days of the 
106th Congress, and--in large measure thanks to your leadership--the 
program was funded at $100 million.
    We are pleased to report that the first year of the FIRE Act was an 
unqualified success. In 9 months, the United States Fire 
Administration--with help from the fire service--issued regulations, 
developed evaluations criteria, evaluated more than 30,000 requests for 
grants, and disbursed $100 million in grants.
    The only downside to last year's FIRE Act grant program was that 
there was simply not enough funding to meet the need. Fire departments 
submitted grant requests totaling close to $3 billion. Clearly the $100 
million disbursed last year is only a small drop in the $3 billion need 
bucket.
    In recognition of this need, and in response to the events of 
September 11, funding for the FIRE Act was increased for the current 
fiscal year to a total of $360 million. Madam Chair, we are well aware 
of the vital role you played in both the regular appropriations process 
and the supplemental appropriation to secure this funding. For that our 
Nations fire service, and my members are indebted to you.
    We are mindful that even prior to September 11, and the heightened 
awareness of our profession, you took the lead in increasing FIRE Act 
funding. It was our honor to stand with you in a firehouse in Arbutus, 
Maryland the day before the attacks as you announced the Senate's first 
increase in funding.
    We are also appreciative of President Bush's recent proposal to 
spend $3.5 billion to train and equip the Nation's first responders. I 
had the opportunity to discuss the vital role fire fighters play in our 
Nation's Homeland Security with Governor Ridge late last year, and I 
have full confidence that he understands the importance of providing 
fire fighters with the tools they need to get the job done. We are 
eagerly looking forward to reviewing the details of this proposal, and 
look forward to working with Congress and the Administration on this 
important initiative.
    But the FIRE Act and the President's Homeland Security proposal are 
only the beginning. We must undertake a comprehensive effort to ensure 
that every fire department in America has the personnel, training and 
equipment it needs to safely and effectively respond to emergencies 
that occur daily and the extraordinary calamities like acts of 
terrorism or floods, hurricanes and other natural disasters.
                               the needs
    Madam Chair, a vibrant, strong, and effective fire department is 
built upon three foundations: (1) an adequate number of fire fighters 
(2) proper training and (3) the right equipment. Staffing, training, 
and equipment are the three pillars that support our Nation's fire 
departments. Shortchange or take one away and the whole structure 
collapses.
Personnel
    The first and foremost need of the fire service is adequate 
personnel. Across our Nation, two thirds of all fire departments--large 
and small--operate with inadequate staffing. In order to come into 
compliance with accepted industry standards, the International 
Association of Fire Chiefs has estimated that 75,000 new fire fighters 
are needed.
    In your own State, Madam Chair, virtually all fire departments are 
in need of additional staffing. The fire departments in Prince 
George's, Anne Arundel, Howard, and other counties respond with three 
or less fire fighters per apparatus.
    In the City of Baltimore, the fire department claims to meet the 
minimum staffing of four fire fighters per apparatus. While this is 
technically true, Baltimore is able to achieve this only by closing 
fire stations and using gimmicks. Since 1990, runs by the city fire 
department have increased by 47 percent while the city has closed 15 
fire stations marking a 26 percent reduction in coverage. Additionally, 
Baltimore employs the practice known as ``rotating closures'' where the 
city closes a station per day on a rotating basis and literally bets 
the lives of its citizens that a life-threatening emergency will not 
occur in the area protected by the closed station.
    This fire fighter shortage is so dire that the Baltimore Fire 
Department cannot respond to more than one multi-alarm emergency at a 
time. And it is completely overwhelmed in major incidents like the 
tunnel train derailment that occurred in Baltimore's Inner Harbor last 
summer.
    Throughout Missouri, the home of the distinguished Ranking Minority 
Member, fire departments are understaffed. Cities in St. Louis County, 
including University City (the largest in the county), run with three 
on a pumper and two on a ladder truck. These jurisdictions are forced 
to violate State law by relying on mutual aid to have an adequate 
number of fire fighters respond to an incident.
    In Jefferson City, the State capital, the fire department runs with 
three or less fire fighters per apparatus and cannot even afford to 
hire fire fighters to serve on its weapons of mass destruction teams. 
Fire fighters have been asked to volunteer to serve on the team, 
undergo training, and respond while off duty.
    The fire fighters of Baltimore, Maryland and Jefferson City, 
Missouri are as brave and capable as any in the Nation, but there is 
simply no way that they can safely protect the public with two people 
on a rig. Responding to emergency incidents with only two people makes 
it impossible for the first responding unit to comply with OSHA's ``2-
in/2-out'' standard for safe fireground operation, and places the lives 
of those firefighters in jeopardy.
    Congress would never allow our Army to engage in a war with two 
thirds of its divisions understaffed. Incredibly, this is exactly what 
we are asking our local fire departments to do in this current war on 
our home soil.
    Currently, there are several proposals under consideration that 
would enable the Federal Government to fund the creation of new fire 
fighter positions. Legislation was introduced last year to create a 
program modeled after the COPS program, which has successfully put more 
police officers on the street. The Senate Committee on Commerce, 
Science and Transportation is also developing fire service legislation 
that would include a staffing component.
    Madam Chair, without any new authorization your committee can 
remedy this chronic problem. The FIRE Act could easily be used as the 
appropriate vehicle for a major staffing initiative. The law already 
allows fire departments to request funding to ``hire additional fire 
fighters,'' but FEMA has opted to exclude hiring from the list of 
grants it will fund. We believe that specific direction from this 
committee would enable FEMA to structure grants in such a way that 
could accommodate staffing. To ensure that staffing would not devour 
the rest of the FIRE Act program, we recommend that the FIRE Act be 
fully funded at $900 million, with half of the money set aside for 
staffing.
    The question of whether the funding for staffing is included as 
part of the FIRE Act or as a separate initiative is of secondary 
concern to the members of my organization. Whatever the appropriate 
vehicle, the Nation's fire fighters call upon this committee to work to 
provide the necessary resources for a nationwide fire fighter staffing 
initiative.
Training
    The second pillar that needs to be fortified is training. Far too 
many jurisdictions lack the funds to hire training instructors, 
purchase training equipment, or have access to training facilities. As 
a consequence, fire departments in these jurisdictions do not provide 
new fire fighters with the basic level of training identified by the 
National Fire Protection Association as necessary to perform the job 
safely and effectively. Throughout the Nation, too many fire fighters 
essentially receive on-the-job training. This is a situation that 
endangers not only the lives of the new fire fighters, but their fellow 
fire fighters and the public that they are sworn to protect.
    While basic fire fighter training is a need for many fire fighters, 
all fire fighters need advanced training in hazmat and weapons of mass 
destruction (WMD) response and mitigation. Terrorism using WMD 
threatens our Nation as never before. September 11, Oklahoma City, and 
other terrorist acts have demonstrated that these madmen will employ 
appallingly unthinkable measures to achieve their goals.
    In fact, just a few short weeks after September 11, our Nation 
experienced its first biological terrorism when anthrax was mailed 
targeting elected officials and the media. During those frantic days in 
October, thousands of frightened Americans called their local fire 
department to report suspicious white powder, quickly overwhelming the 
capability of all dedicated hazmat crews. As a result, it was frontline 
fire fighters who responded to these calls, far too many of whom lacked 
hazmat training. It is now clear that all fire fighters need operations 
level hazardous materials/WMD response training.
    Two solutions to the training shortage are the FIRE Act and the 
Administration's Homeland Security proposal. The members of this 
subcommittee have direct influence on both items and the IAFF urges you 
to fully fund both programs.
    The FIRE Act and the Homeland Security proposal complement each 
other and offer the promise of covering the full spectrum of training. 
With full funding for the FIRE Act, cash strapped fire departments can 
begin to get the basic fire fighter training that is desperately 
needed. For the more specialized training, the Homeland Security 
proposal could be the means to fund the needed hazmat/WMD terrorism 
response training across the Nation.
    Additionally, this subcommittee has jurisdiction over two 
innovative hazmat training programs. From the vantage point of front 
line emergency responders, the two crucial components of any hazmat 
training program are that the training is conducted in the local 
jurisdiction incorporating the unique aspects of the communities, and 
that it uses trainers who are both certified instructors and 
professional firefighters.
    The advantage of training in one's own jurisdiction is self-
evident. Training for a terrorism event in your own community allows 
first responders to not only learn the tactics and methods of effective 
response, but also apply these theoretical concepts to concrete targets 
in their jurisdiction. This value-added piece is missing when 
firefighters are forced to attend remote training sites.
    The value of qualified firefighters teaching other firefighters is 
in the benefit gained by shared experiences. The bond of common 
experiences allows firefighter instructors to more effectively 
communicate the lessons of a training course than, say, a person from 
the academia or the military. These firefighter instructors know the 
fire fighting jargon and can speak the language and because they are 
both firefighters and subject matter experts, they command a great 
amount of respect from their students.
    I am proud to note that the IAFF, in partnership with the EPA and 
NIEHS, offers training programs to all fire departments--free of 
charge--in hazmat response. The IAFF program focuses on emergency 
responder safety and has all the elements of a successful training 
program. We use skilled instructors, who are both hazmat technicians 
and certified instructors, to train fire departments to safely and 
effectively respond to conventional, biological, chemical, or nuclear 
hazmat incidents. Additionally, our program conducts the training in 
the community and incorporates the unique aspects of the localities. I 
am also proud to note that this training is available to all fire 
fighters, career and volunteer.
    Especially since September 11, the demand for our training program 
far outpaces our funding to deliver it. If this subcommittee increases 
the appropriations to the EPA and NIEHS for our training program, we 
can meet this ever-growing demand and improve the security of our 
Nation.
Equipment
    The third pillar that needs to be reinforced is equipment. 
Recently, the IAFF, which represents more than 90 percent of all the 
professional fire departments in the Nation, conducted a survey of our 
State Associations. Twenty-two States participated in the survey, 
representing 1364 fire departments (54 percent of all IAFF Locals).
    Among the survey findings were:
  --43 percent of fire departments are in need of additional turnout 
        gear (i.e., coats, gloves, helmets, and boots).
  --50 percent of fire departments are in need of additional 
        respirators.
  --70 percent of fire departments do not have adequate maintenance 
        programs for their protective gear.
  --66 percent of fire departments are in need of better communications 
        equipment.
    Our bleak survey results were validated by the analysis of last 
year's FIRE Act data. Of the 30,000+ grant requests submitted last year 
for the six eligible categories, 27,384 were for the three categories 
of personal protective equipment, fire fighting equipment, and 
vehicles. The 27,384 grant requests in these three areas accounted for 
$2.71 billion. Less than 5 percent of those grant requests were 
awarded.
    As you know, the FIRE Act's purpose is to assist those fire 
departments most in need. Thus, there was a heavy emphasis on basic 
firefighting needs. The vast majorities of the grant requests were not 
for State of the art or specialized equipment. They were for the basic 
everyday firefighting and personal protective equipment.
    A number of IAFF members served as grant evaluators. Some of them 
have told me they literally shed tears during the evaluation process 
because they denied requests to replace 15-year-old threadbare turnout 
coats that are shared by several fire fighters, because there were many 
departments in worse circumstances. It is a deplorable situation when 
fire fighters who possess barely functional equipment must consider 
themselves lucky because there are fire departments in such dire need 
that their fire fighters do not have basic equipment at all.
    And beyond the need for basic equipment, there is a tremendous need 
for advanced hazmat equipment, in particular hazmat detecting 
equipment. As my organization has become increasingly involved in WMD 
emergency response, I have become convinced that the greatest threat to 
our safety comes not from sophisticated nuclear devices launched by 
foreign Nations, but from so-called ``dirty bombs'' that utilize a 
conventional explosion to release radioactive material. With minimal 
technical expertise, anyone with access to agricultural fertilizer 
could unleash an atomic reaction that threats thousands of lives.
    In the event of such a dirty bomb detonation, calls to 911 will 
only report an explosion and fire. Fire fighters responding to the 
scene will be completely unaware of the radiological contamination 
dispersed miles beyond ground zero.
    For years we have been told that it is the job of the military, 
with their specialized training and sophisticated monitoring devices, 
to respond to such incidents. But the reality is that these military 
teams, as capable as they are, could be hours away. Meanwhile, the fire 
fighters are on the scene within minutes.
    Thus, it is vital that all first responders have access to 
monitoring devices, and be provided with the proper training to use 
them accurately. When fire fighters are made aware of the radiological 
dangers, we can take the appropriate procedures to limit our exposure 
so that we can begin to conduct rescue and decontamination missions.
    This subcommittee has the means to begin addressing the atrocious 
lack of equipment, both basic and specialized. First, again the FIRE 
Act must be fully funded. With approximately 26,000 requests 
unfulfilled from last year, we can be sure that basic firefighting and 
personal protective equipment will again be in demand.
    Second, fully fund President Bush's proposals for Homeland 
Security. $3.5 billion for equipment and training will go a long way 
towards closing the gap between the needs of the fire service for 
hazmat equipment and the resources available to obtain it.
                               conclusion
    Too often, the fire service has been neglected when it comes to 
planning and devoting resources to do our job. Yet, we are the first 
responders and the ones making the ultimate sacrifice to protect our 
Nation. As we pray for a quick and decisive resolution to the war in 
Afghanistan, we must not forget that the fire service stands guard, 
day-in and day-out, protecting our communities and our Nation.
    The Federal Government, including Congress and the Administration, 
has begun to recognize that firefighters are the lynchpin to an 
effective and strong homeland security. The firefighters of the IAFF 
will be ready when the next alarm rings or when terrorists strike 
again. But our ranks are thin and reinforcements are needed quickly.
    Congress must follow through and provide the resources to ensure 
that fire fighters have adequate staffing, proper training and the 
right equipment so that we will be able to do our job. Fully funding 
the FIRE Act and Homeland Security proposal, and increasing the funding 
for hazmat training are ways this subcommittee can meet this 
obligation. Our organization will never forget the sacrifice of 343 
members on September 11. Hopefully their sacrifice and heroism will be 
the catalyst for the Federal Government to embrace its responsibility 
and provide the resources to allow our members to do their job safely 
and effectively.
    Thank you for this time to present the view of the IAFF. I will be 
available for questions by the committee.

    Senator Mikulski. Thank you very much. That was very 
compelling.
    Chief Buckman, why do we not turn to you?
STATEMENT OF JOHN M. BUCKMAN, III, CHIEF, INTERNATIONAL 
            ASSOCIATION OF FIRE CHIEFS
    Mr. Buckman. Good afternoon, Madam Chair and members of the 
subcommittee. I am John Buckman, Chief of the German Township 
Volunteer Fire Department in Evansville, Indiana, and President 
of the International Association of Fire Chiefs. The IAFC 
represents the leaders of America's fire and emergency 
services.
    Thank you for the opportunity to advise you about the 
pressing needs of America's fire and emergency services and the 
status of the Assistance to Firefighters grant program 
administered by FEMA.
    In the autumn of 2000, Congress authorized and funded the 
Assistance to Firefighters grant program. Its purpose is to 
assist departments in securing the fundamental tools of 
firefighting. You have heard the statistics. You know how many 
people applied. You know how much money they asked for.
    FEMA established an office to administer the program and 
the criteria for the selection of recipients. Working to 
achieve the goals and priorities established by Congress, FEMA 
consulted with major fire service organizations and developed 
the specifics of the first Assistance to Firefighters grant 
program quickly and efficiently.
    And let me say one thing about FEMA. They performed. Even 
with the events of September 11 and all the things that FEMA 
was called upon to do in those ensuing days, they still got the 
FIRE Act grant program done, completed, and the money out the 
door.
    The events of September 11 demonstrated, once and for all, 
the critical role of the fire service in responding to national 
disasters. As a result, Congress has enacted several 
significant enhancements to the grant program for future years. 
Most significantly is your authorization to increase the 
funding to $360 million for fiscal year 2002, and an additional 
2 years of funding at a level of $900 million, triple the 
original amount.
    In addition new grant categories were added, including 
grants for equipment related to the response to terrorism 
incidents. These changes will pay extraordinary dividends to 
local fire departments and the citizens they protect around the 
country, and we thank you and Congress for enacting them.
    As this record indicates, in a very short time the grant 
program has developed an impressive record of funneling 
desperately needed Federal resources directly to those who are 
on the front line of homeland security. That is America's fire 
service. Based on that record, we encourage you and Congress to 
utilize the Assistance to Firefighters grant program for any 
funds appropriated for the purpose of assisting the fire 
services' missions of domestic defense.
    In his State of the Union address 1 week ago today, 
President Bush made a commitment to a sustained strategy for 
increased homeland security. The President has made clear that 
he considers a critical component of this strategy to be 
increased Federal funding for America's first responders.
    In order to ensure that the full benefits of this increased 
funding are realized by the American people, we urge you and 
Congress to utilize the Assistance to Firefighters grant 
program for that portion of funding meant for the fire and 
emergency services.
    We do not think there is a need to establish any new 
programs for terrorism preparedness. The mechanisms to get 
necessary local resources are already in place within FEMA. Let 
us use them. Use the existing programs. Congress can ensure 
that appropriated funds quickly reach where the rubber meets 
the road. It is America's fire service, the only people in the 
United States who are situated locally, trained, equipped, and 
sworn to respond within minutes to all incidents that are 
communities face.
    The understaffing of fire departments is an issue that must 
be addressed. Whether a department is a career, combination, or 
volunteer, the level of staffing is an immediate issue, 
especially in light of today's reality.
    Working with our counterparts at the International 
Association of Firefighters, we have strongly endorsed the 
bipartisan legislation, Staffing for Adequate Fire and 
Emergency Response, the SAFER bill, introduced by Senators Dodd 
and Warner, that will provide Federal assistance to local fire 
departments for the purpose of hiring new firefighters. Local 
governments would be required to pay an increasing share of the 
costs associated with new firefighters over a 3-year period 
until the local government assumes all responsibility for 
funding the new positions.
    General President Schaitberger urged this morning to fully 
fund the Assistance to Firefighters grant program, one-half of 
that being allocated to staffing. And we agree with his 
objective and fully support it.
    We anticipate that volunteer and combination fire 
departments will also have the opportunity to apply for grants 
to fund staffing within their departments. We believe that it 
is important that volunteers and combination departments have 
this opportunity.
    The primary objective of adding 75,000 additional 
firefighters is raising the staffing level of fire departments 
throughout the country to four firefighters per unit. A four-
person unit will yield a 100 percent increase in operational 
capacity with three-person companies. Under Federal 
administrative law and proper safety practices, firefighters 
must operate in teams of at least two people. Therefore, 
staffing a fire apparatus with four people will yield two 
working teams of two each, doubling the capacity of apparatus 
staffed with three personnel. Raising staffing levels to four 
personnel is a large undertaking but it is necessary.
    Another aspect of this problem is the increased difficulty 
in recruiting and retaining volunteer firefighters. As a 
volunteer fire chief myself, I personally know how difficult 
that is. The reasons for this problem are varied and the 
solutions are complex. We will continue to work with Congress 
and you on these issues.
    However, I would like to take a moment to applaud the 
National Fire Academy and their work in the volunteer incentive 
program. They have developed courses specifically designed for 
the volunteer firefighters to attend the National Fire Academy 
and to be exposed to the leadership courses that they present. 
Their curriculum reflects the diverse needs of the volunteer 
fire service, and the financial aid enables any volunteer 
firefighter in this country to attend their classes. The 
National Fire Academy is a critical supporter of the volunteer 
fire service and we are grateful.
    In 1997, the Department of Defense and Justice began 
training and equipping local firefighters and police to deal 
with incidents of terrorism involving weapons of mass 
destruction. Similar programs have since been authorized by 
Congress bringing the Department of Health and Human Services, 
FEMA, and other Federal agencies into this effort. Without 
doubt, we have made progress. But preparedness efforts need to 
be more clearly focused.
    In May of last year, President Bush proposed an Office of 
National Preparedness at FEMA. The ONP was to serve as a single 
point of contact for State and local public safety agencies 
charged with reviewing all Federal training and response 
programs spread all across a myriad of Federal agencies.
    We have strongly endorsed the creation of the Office of 
National Preparedness in prior testimony before Congress and we 
reiterate that endorsement today. It has the support of 
America's first responders and represents a crucial step in the 
right direction. It is the logical extension of FEMA's 
responsibilities for disaster response and is consistent with 
President Bush's public announcement in May last year 
concerning the organization and management of Federal terrorism 
response programs and his creation of the Office of Homeland 
Security.
    In the days immediately following the attacks of September 
11, many Americans heard for the first time urban search and 
rescue, USAR, teams. As Chief Paulsell testified, there are 28 
teams. We would agree with his analysis that we do not need 
more teams but we need to fully fund the existing teams.
    In the metropolitan Washington area, for example, there are 
USAR teams in Fairfax County, Virginia and Montgomery County. 
In the event of a major structural collapse, such as occurred 
in New York City or in San Francisco a few years ago with their 
earthquake, any of these teams can be activated by FEMA. They 
travel distances far beyond their local jurisdictions to 
perform crucial rescue operations. By any measure, the 
effectiveness of USAR teams in response to a wide variety of 
disasters has been impressive. Building upon this proven track 
record, the IAFC has put forth several suggestions to enhance 
the effectiveness of USAR teams.
    First, we are pleased to note that FEMA Director Joe 
Allbaugh has already proposed action on one of our initial 
recommendations, authority for credentialing, training, and 
deploying USAR teams will move to the U.S. Fire Administration. 
This organizational change will ensure that FEMA staff with 
operational fire experience will be leading the USAR program 
and coordinating the Federal response to a major disaster.
    We also encourage the following additional changes to the 
USAR program. The IAFC believes that USAR should be expanded 
and upgraded by the formation of smaller, more mobile ``USAR 
Lite'' teams. Under the existing system, the Federal Government 
should assist the fire service in expanding a proven concept by 
creating additional smaller units within each State, which 
would include staffing levels and equipment caches with 
sufficient personnel and equipment to effectively function for 
4 to 24 hours. These teams will be designed to be smaller, 
quicker to deploy, and in closer proximity to the emergency, 
and therefore have easier and more rapid access to emergency 
scenes. Short response times are critical to saving lives. They 
are a critical consideration in search and rescue operations 
when looking for people buried beneath rubble. Time is what 
saves lives. This immediate response would be followed by the 
deployment of more traditional USAR teams, which would be 
activated and deployed in their usual manner.
    We also believe there is a need for what we call command 
overhead teams. In talking with the firefighters, the chief 
officers from Arlington County that responded to the Pentagon 
incident, one of the problems they had was in having enough 
qualified people to manage the incident. The command overhead 
teams are similar to what the Bureau of Land Management does in 
wildland fires. It is often the case in prolonged major 
incidents where managing the incident, having enough skilled 
and competent people to do that, becomes a major issue. These 
local fire departments would welcome outside assistance to help 
manage the incident. The command overhead teams involve the 
creation of small groups of qualified, competent command 
officers who can be called upon on short notice to provide 
assistance to local efforts in an emergency at the request of a 
local incident commander.
    The U.S. Fire Administration is a directorate within FEMA. 
Its mission is to provide leadership, coordination, and support 
for the Nation's fire prevention and control, fire training and 
education programs. The U.S. Fire Administration's ultimate 
objective is to significantly reduce the Nation's loss of life 
from fire.
    Historically, leadership at the U.S. Fire Administration 
has been unstable. As the fire service moves forward with 
changes that it will make as a result of September 11, those 
changes will place an even greater leadership burden on the 
U.S. Fire Administration. That is why the Federal Government 
must move forward now to ensure that constancy and depth of 
leadership is in place throughout the U.S. Fire Administration.
    I know my time is up. I will summarize with this comment.
    Senator Mikulski. We have to leave the room at 1:00.

                           PREPARED STATEMENT

    Mr. Buckman. The fire service is America's domestic 
defender. We are the first ones inside and most of the time we 
are the last ones outside. We need and deserve Federal 
assistance because we have proven time and time again that we 
respond to all the communities' emergency needs. We need your 
help.
    Thank you very much.
    [The statement follows:]
               Prepared Statement of John M. Buckman, III
    Good morning, Madam Chair and members of the subcommittee. I am 
Chief John Buckman, chief of the German Township Volunteer Fire 
Department in Evansville, Indiana and president of the International 
Association of Fire Chiefs (IAFC).
    The IAFC represents the leaders of America's fire and emergency 
service, which consists of over 31,000 fire departments in the United 
States staffed by more than 1.1 million fire fighters and emergency 
medical services personnel. Of those, more than 800,000 are volunteers 
and about 250,000 are career personnel.
    Thank you for this opportunity to advise you about the pressing 
needs of America's fire and emergency service and the status of the 
Assistance to Firefighters grant program administered by the Federal 
Emergency Management Agency (FEMA).
                assistance to firefighters grant program
    In the autumn of 2000, Congress authorized and funded the 
Assistance to Firefighters grant program. Its purpose is to assist 
local departments in securing the fundamental tools of fire fighting. 
In its first year, nearly 20,000 fire departments sought support from 
the Federal government to improve fire prevention programs, upgrade 
training, purchase personal protective gear, apparatus and equipment, 
and enhance fitness and wellness programs to better enable personnel to 
mitigate the all-hazards incidents to which we respond. Grant requests 
totaling nearly $3 billion were received by FEMA for the $100 million 
available in fiscal year 2001.
    FEMA established an office to administer the program and criteria 
for the selection of recipients. Working to achieve the goals and 
priorities established by Congress, FEMA consulted with major fire 
service organizations and developed the specifics of the first 
Assistance to Firefighters grant program quickly and efficiently.
    The events of September 11th demonstrated, once and for all, the 
critical role of the fire service in responding to national disasters. 
As a result, Congress enacted several significant enhancements to the 
grant program for future years. Most significantly, funding for the 
program was increased to $360 million for fiscal year 2002 and the 
program was reauthorized for an additional two years at a funding level 
of $900 million--triple the original amount. In addition, new grant 
categories were added including grants for equipment related to the 
response to terrorism incidents. These changes will pay extraordinary 
dividends to local fire departments and the citizens they protect 
around the country and we thank you and Congress for enacting them.
    As this record indicates, in a very short time the grant program 
has developed an impressive record of funneling desperately needed 
Federal resources directly to those who are on the frontline of 
homeland security, America's fire service. Based on that record, we 
encourage you and Congress to utilize the Assistance to Firefighters 
grant program for any funds appropriated for the purpose of assisting 
the fire service's mission of domestic defense.
    In his State of the Union address one week ago today, President 
Bush made a commitment to a sustained strategy for increased homeland 
security. The president has made clear that he considers a critical 
component of this strategy to be increased Federal funding for 
America's fire and emergency service. In order to ensure that the full 
benefits of this increased funding are realized by the American people, 
we urge you and Congress to utilize the Assistance to Firefighters 
grant program for that portion of funding meant for the fire and 
emergency service. We do not think there is a need to establish any new 
programs for terrorism preparedness. The mechanisms to get necessary 
resources to local responders are in place. Let's use them. By using 
this existing program, Congress can ensure that appropriated funds 
quickly reach America's fire service--the only people in the United 
States who are situated locally and trained, equipped, and sworn to 
respond within minutes to all incidents, natural or man-made, which 
threaten the American homeland.
                    additional firefighter staffing
    The understaffing of fire departments is an issue that must be 
addressed. Whether a department is a career, combination, or volunteer, 
the level of staffing is an immediate issue, especially in the light of 
today's reality.
    Working with our counterparts at the International Association of 
Fire Fighters we have strongly endorsed bipartisan legislation--the 
Staffing for Adequate Fire and Emergency Response (SAFER) bill--
introduced by Senators Christopher Dodd and John Warner that would 
provide Federal assistance to local fire departments for the purpose of 
hiring new fire fighters. Local governments would be required to pay an 
increasing share of the costs associated with the new fire fighters 
over a three-year period until the local government assumed all 
responsibility for funding the new positions.
    The primary objective of adding 75,000 additional fire fighters is 
raising the staffing level of fire departments throughout the country 
to four fire fighters per unit. A four-person response unit will yield 
a 100 percent increase in operational capacity compared with three-
person companies. Under Federal administrative law and proper safety 
practices, fire fighters must operate in teams of at least two people. 
Therefore, fire apparatus staffing of four will yield two working teams 
of two, doubling the capacity of apparatus staffed with three personnel 
which can only form one operational team. Raising staffing levels to 
four personnel is a large undertaking, but it is necessary.
    Another aspect of this problem is the increasing difficulty in 
recruiting and retaining volunteer fire fighters. As a volunteer fire 
chief, I personally know how difficult this is. The reasons for this 
problem are varied, and the solutions complex. We will continue to work 
with Congress on these issues. However, I would like to take a moment 
to applaud the National Fire Academy for its effective support of the 
volunteer fire service. Its curriculum reflects the diverse needs of 
the volunteer fire service and their generous financial aid enables 
many volunteer fire fighters to attend their classes. The National Fire 
Academy is a critical supporter of the volunteer fire service, and for 
that we are grateful.
                    office of national preparedness
    In 1997, the Departments of Defense and Justice began training and 
equipping local fire fighters and police to deal with incidents of 
terrorism involving weapons of mass destruction. Similar programs have 
since been authorized by Congress, bringing the Department of Health 
and Human Services, FEMA, and other Federal agencies into the effort. 
Without doubt we have made progress, but preparedness efforts need to 
be more clearly focused.
    In May of last year, President Bush proposed an Office of National 
Preparedness (ONP) at FEMA. The ONP was to serve as a single point-of-
contact for State and local public safety agencies, charged with 
reviewing all Federal training and response programs spread across 
myriad Federal agencies.
    We have strongly endorsed the creation of the Office of National 
Preparedness in prior testimony before Congress, and we reiterate that 
endorsement today. It has the support of America's first responders and 
represents a crucial step in the right direction. We are pleased that 
this Committee approved and funded the Office of National Preparedness. 
It is a logical extension of FEMA's responsibilities for disaster 
response and it is consistent with President Bush's public announcement 
in May of last year concerning the organization and management of 
Federal terrorism response programs and his creation of the Office of 
Homeland Security.
                             usar expansion
    In the days immediately following the attacks on September 11, 
2001, many Americans heard for the first time about the Federal 
Emergency Management Agency's ``Urban Search and Rescue'' (USAR) teams. 
There are 28 teams, largely composed of local fire fighters with 
specialized training and equipment and extensive experience that can be 
deployed to major incidents throughout the country.
    In the metropolitan Washington area, for example, there are USAR 
teams in Fairfax County, Virginia, and Montgomery County, Maryland. In 
the event of a major structural collapse--such as occurred in New York 
City, or a few years ago in the San Francisco earthquake--these teams 
or any of the other 26 can be ``activated'' by FEMA. They travel to the 
scene of disasters to perform crucial rescue operations.
    By any measure, the effectiveness of the USAR teams, in response to 
a wide variety of disasters, has been impressive. Building upon this 
proven track record, the IAFC has put forth several suggestions to 
enhance the effectiveness of the USAR teams.
    First, we are pleased to note that FEMA Director Joe Allbaugh has 
already proposed action on one of our initial recommendations--
authority for credentialing, training and deploying Urban Search and 
Rescue teams will move to the U.S. Fire Administration (USFA). This 
organizational change will ensure that FEMA staff, with significant 
operational fire experience is in charge of this critical component of 
the Federal response to any major disaster.
    We also encourage the following additional changes to the USAR 
program. The IAFC believes the USAR program should be expanded and 
upgraded by the formation of smaller, more mobile ``USAR Lite'' teams. 
The Federal government should assist the fire and emergency service in 
expanding a proven concept by creating additional smaller units in each 
State, which would include staffing levels and equipment caches with 
sufficient personnel and equipment to effectively function for 4 to 24 
hours. These teams will be designed to be smaller, quicker to deploy, 
and closer in proximity to the emergency, and would therefore have 
easier and more rapid access to emergency scenes. Short response times 
are a critical consideration when the lives of people buried beneath 
rubble are at stake. This immediate response would be followed by the 
deployment of the more traditional USAR teams, which would be activated 
and deployed in their usual manner.
    We also believe there also is a need for what we call ``Command 
Overhead Teams.'' It is often the case in prolonged, major incidents 
that a fire department's commanders are fully engaged in addressing the 
instant issues and are hard-pressed to anticipate what might develop 
and to then plan for the future. They would welcome outside assistance. 
The ``Command Overhead Teams'' concept involves the creation of small 
groups of three-to-five experienced command officers who can be called 
upon on short notice to provide assistance to local efforts in an 
emergency at the request of a local incident commander.
    The USAR program has a well-deserved reputation for excellence. 
Based on this record we strongly encourage FEMA to implement these 
recommendations in order to further enhance the operational 
capabilities of this critical national resource.
                           federal leadership
    The U.S. Fire Administration is a directorate within FEMA. Its 
mission is to provide leadership, coordination, and support for the 
Nation's fire prevention and control, fire training and education, and 
emergency medical services activities. The U.S. Fire Administration's 
ultimate objective is to significantly reduce the Nation's loss of life 
from fire, while also achieving a reduction in property loss and non-
fatal injury due to fire.
    Historically, leadership at the U.S. Fire Administration has been 
unstable. As the fire service moves forward with changes that it will 
make as a result of the September 11th tragedy, those changes will 
place an even greater leadership burden on USFA. That is why the 
Federal government must move forward now to ensure that constancy and 
depth of leadership is in place throughout the organization to prepare 
the U.S. Fire Administration for the challenges that lie ahead and to 
meet the needs of the Nation.
    Fortunately, FEMA Director Joe Allbaugh understands this need and 
has taken decisive action to provide leadership at the U.S. Fire 
Administration and provide it with the resources and oversight to 
effectively carry out its mission. We applaud Director Allbaugh's 
appointment of a strong leader with a distinguished fire service 
background as U.S. Fire Administrator. We further appreciate Director 
Allbaugh's recognition, as evidenced by his advocacy, of the role of 
America's fire and emergency service community in protecting our 
Nation's communities. His actions since assuming office will enhance 
the safety and security of all Americans.
                               conclusion
    Madam Chair, our testimony today has been strongly supportive of 
FEMA. The reason for this is simple. They have earned the support of 
the fire and emergency service based on a proven track record of 
providing invaluable training, equipment, and resources to America's 
local ``first responder'' community both on-scene at disaster sites and 
during the ongoing planning and training that all responder 
organizations must constantly pursue. They clearly recognize that 
America's local fire departments are the first line of disaster 
response in this country.
    It is for this reason that we encourage Congress to utilize this 
Agency as you look to significantly enhance and improve America's 
readiness capabilities. President Bush has budgeted an unprecedented 
amount of Federal support for America's ``first responders'' in the 
name of homeland security. We strongly urge Congress to utilize 
existing programs, specifically the Assistance to Firefighters grant 
program administered by FEMA, to ensure that these funds are quickly 
disbursed to the local responders who will use them efficiently and 
effectively to provide for the security of the American homeland.
    The International Association of Fire Chiefs very much appreciates 
the opportunity to appear before you today to discuss FEMA and the 
Assistance to Firefighters grant program. I am happy to answer any 
questions you may have.

    Senator Mikulski. Thank you very much, and we do not want 
to cut anybody off. This has been so important, it ought to go 
on for a long time.
    Mr. Stittleburg, why do you not bring to us the views of 
the National Fire Council? And we welcome you from Wisconsin. 
We have good representation here.
STATEMENT OF PHILIP C. STITTLEBURG, CHAIRMAN, NATIONAL 
            VOLUNTEER FIRE COUNCIL
    Mr. Stittleburg. Thank you, Madam Chairlady. I had the 
pleasure of making your acquaintance last fall at the fallen 
firefighters memorial service in Emmitsburg, and I thank you 
for your attendance there.
    Senator Mikulski. It was when President Bush was there and 
then we shortly began to bomb Afghanistan. Harold and we were 
all there.
    Mr. Stittleburg. It was indeed an important day. I thank 
you for your attendance. You did us honor by your presence.
    My name is Chief Phil Stittleburg. I am Chairman of the 
National Volunteer Fire Council. I have been in the volunteer 
fire service for 30 years. I spent about 25 years of that 
serving as chief officer.
    There are about 800,000 volunteer firefighters in the 
United States. About 90 percent of the fire departments in this 
country are volunteer fire departments. About 75 percent of all 
firefighters in this country are volunteer firefighters, and we 
protect about 38 percent of the United States population.
    Volunteers give of their time, their talents. Sometimes 
they give their very lives. This donated time and talent that 
they provide translates directly into substantial dollar tax 
savings for the taxpayers. Estimates run as high as $60 
billion. That is with a B, $60 billion or more a year provided 
just simply by the donated services of volunteer firefighters 
nationwide.
    Volunteers were deeply involved in all the events 
surrounding September 11. Volunteer departments responded to 
the plane crash in Somerset County, Pennsylvania. We were part 
of the response to the Pentagon, as you have already heard. 
Volunteer departments provided backup to the World Trade Center 
disaster. A number of the firefighters from New York City who 
lost their lives, in fact, in the trade center were also 
volunteers in their own home communities.
    September 11 sent many messages. I think the clearest of 
all is that the fire service is indeed the first responder to 
terrorist attacks. Terrorism is going to expand our 
responsibilities. I can tell you we will meet that challenge. 
That is part of the proud history of the fire service, meeting 
challenges.
    I will tell you also we will not meet it without a 
struggle. One of the struggles that the volunteer fire service 
encounters is that of funding. Most, if not all, of us struggle 
routinely for the dollars we need to operate. The dollars 
provide protective clothing to our members, safety equipment, 
the necessary training that they need, and that is not even 
taking into account the money it takes to actually buy the 
equipment to mitigate the hazard itself.
    It is not just a rural problem. Suburban areas likewise are 
seeing expanded demands for their services which translates 
into greater demand for dollars. And technology I think offers 
some solutions, but it is often solutions at a high price.
    In the first panel there was some discussion about the 
radio communications. A couple of years ago, I had an 
opportunity to speak with a major radio communications 
manufacturer. I said, what is in the pipeline? What kind of 
technology is out there that you are going to be giving us in 
the coming years? And his response was, anything you want. And 
I said, well, what do you mean by that? And he said, it is as 
simple as this. If you can dream it, we can build it, but you 
cannot afford to buy it.
    What we need to do is support the development of technology 
that becomes affordable, and we can do that in a number of 
ways. I suggest we can do it through exploring technology 
transfer. We look to industry. We look to the space program. We 
look to the military for other pieces of technology that are 
already in place that are adaptable to our mission. I think 
Chief Paulsell made some reference. The marriage he referred to 
it as. We need to be able to draw upon that technology that is 
already there.
    Most of the previous speakers already referred to the 
Assistance to Firefighters grant program, and I will simply 
echo what they said by indicating, first of all, it was a 
tremendous first step. It was certainly a step in the right 
direction and it was a giant step. Unfortunately, it is not 
enough.
    Just to highlight the significance of it because when that 
program was being considered, I heard some people say, well, I 
wonder if the fire service is really listening. I wonder if 
really the need is there. Well, there were 31,000-plus grant 
requests received from nearly 19,000 fire departments. Bearing 
in mind there are only 26,000 fire departments in the United 
States, there were nearly 19,000 departments requesting money. 
$3 billion requested; $100 million appropriated. Interestingly 
enough, 1,855 grants were awarded. 1,379 of those were awarded 
to communities under 20,000 people.
    And I salute you for your efforts in that regard having 
increased that appropriation for this year to $360 million. You 
have also expanded the category to fire department sponsored 
EMS, and that was a good move. EMS is a rapidly expanding area 
for us, and that was I think a very wise choice. The $900 
million that is proposed for 2003 and 2004, I would certainly 
strongly encourage you to support that and authorize those 
funds.
    President Bush has recommended the role that volunteers 
play in homeland defense, and specifically he has asked the 
public to volunteer. He has talked about something called the 
first responder initiative. As I understand it, he proposes 
that to enhance homeland security and proposes $3.5 billion in 
fiscal year 2003 for that. We certainly support that. We would 
wish to be closely involved in the development of that program 
and would ask your support for it also.
    As to the distribution of funds, I would echo what I think 
nearly every speaker ahead of me has said, and that is the 
Assistance to Firefighters grant program I think has been an 
absolute model of Government efficiency. As my colleague, Chief 
Buckman said, it put the money where the people needed it and 
it did it quickly. It did it with very little shrinkage. It did 
it by bringing in people who volunteered their time to review 
the grant applications, people who were knowledgeable and in a 
position to fairly evaluate those at a cost to the Government 
of only the travel. They donated their time and their talents 
to do this.
    Another issue for the volunteer sector is that of 
recruitment and retention. Chief Buckman mentioned staffing. 
That is our staffing. Recruitment and retention of our 
staffing, and it is a serious problem for us. There are about 
100,000 less volunteer firefighters in this country today than 
there were in 1983, and I find that to be a pretty frightening 
statistic. I am not here to tell you that the volunteer fire 
service is dying. To paraphrase Mark Twain, the reports of our 
demise have been greatly exaggerated. However, there is a 
problem and we do need help to stay healthy.
    There are, I believe, a number of factors that contribute 
to this challenge that we face in recruitment and retention, 
one of which is fund raising demands. As equipment becomes more 
expensive, as more equipment is required, more time is spent on 
raising the funds to buy that equipment, which seems to me to 
be illogical.
    In some areas, calls are increasing, and that of course, is 
a matter of concern.
    Training requirements continue to increase, and that 
certainly has an impact.
    And this all occurs at a point when there is less time to 
volunteer. All the statistics seem to show that we spend more 
time at our jobs today than we did years ago. There are more 
two-earner families now, so there are less people to share the 
housekeeping duties and things of that nature.
    President Bush in his State of the Union address asked for 
everyone to commit to service to their neighbors to become 
volunteers. Let me tell you, when it comes to that, we are the 
experts. We have been doing that for 300 years. We wrote the 
book on it.
    He laid out a plan for the USA Freedom Corps, which would 
create a new citizens corps. As I understand it, FEMA is to 
coordinate the citizens corps. The Bush administration I 
believe has proposed $230 million for fiscal year 2003. Once 
again, I would strongly urge that you support that.

                           PREPARED STATEMENT

    We have a vested interest in promoting and protecting the 
volunteers in this country. America has a vested interest in 
promoting and protecting the volunteers of this country. I am 
very honored to share these thoughts with you today. I thank 
you for your past support. I ask you for your future support. I 
can assure you that we take good care of the dollars you give 
us, and the dollars you give us directly benefit your 
constituents.
    I would be pleased to take any questions. Thank you.
    [The statement follows:]
              Prepared Statement of Philip C. Stittleburg
    Madam Chairman and members of the committee, my name is Phil 
Stittleburg and I am Chairman of the National Volunteer Fire Council 
(NVFC). The NVFC represents the interests of the Nation's nearly 
800,000 volunteer firefighters, who staff over 90 percent of America's 
fire departments. I have served in the volunteer fire service for the 
last 30 years and have been the Chief of the LaFarge Volunteer Fire 
Department in Wisconsin for the last 25 years. I have had experiences 
in all phases of the first responder community, including chemical and 
hazardous materials incidents, information management, EMS, rescue and 
fire.
    In addition to serving as NVFC Chairman, I have represented the 
NVFC on a variety standards-making committees, including ones that set 
industry standards on firefighter health and safety. I also serve on 
the National Fire Protection Association's Board of Directors and I am 
an adjunct instructor for the National Fire Academy. I earn my 
livelihood as an attorney, which includes serving as an Assistant 
District Attorney on a half-time basis for the last 28 years. These 
positions give me an excellent opportunity to work in emergency 
services in both the law enforcement and fire service professions. On 
behalf of the volunteer fire service, I appreciate the opportunity to 
comment on needs and challenges we face.
    According to the National Fire Protection Association (NFPA), 
nearly 75 percent of all firefighters are volunteers. In most years 
more than half of the firefighters that are killed in the line of duty 
are volunteers. In addition to the obvious contribution that volunteer 
firefighters lend to their communities as the first arriving domestic 
defenders, these brave men and women represent a significant cost 
saving to taxpayers, a savings sometimes estimated to be as much as $60 
billion.
    September 11, 2001 is a date that will be long remembered for the 
horrible losses our Nation suffered, including the loss of so many of 
our brothers and sisters in the emergency services. September 11 will 
also be remembered for the heroics of those brave men and women who ran 
into the World Trade Center to render aid to their fellow New Yorkers, 
those who valiantly fought the raging fire at the Pentagon in 
Arlington, VA, and the fire companies who responded to the Somerset 
County, PA plane crash. Volunteer fire, rescue, EMS, and technical 
specialty teams answered and responded on that fateful day at Somerset 
and the Pentagon incidents and provided backup support to many 
departments who responded to the World Trade Center. Finally, September 
11 will be remembered for ushering in America's new all out war against 
terrorism at home and abroad.
    The September 11 tragedies in New York, Arlington, Virginia and 
Southwestern Pennsylvania made it clear to all Americans that the fire 
service is the first responder to all terrorist attacks this country 
may face. Administration officials and Members of Congress continue to 
warn Americans of a ``clear and present danger'' of follow-up terrorist 
attacks. The question now is when and where, not if, the next terrorist 
attack will occur. As America's domestic first responders, the fire 
service will be on the front lines of any incident and must be prepared 
to respond to and defend our citizens from the ravages of terrorist 
attacks using conventional weapons or weapons of mass destruction. This 
expands our normal services beyond the delivery of fire, EMS, rescue, 
and technical specialty services to our citizens. These services 
already have time and training demands that are escalating annually.
    America's fire and emergency services are in need of your 
assistance and you, as Members of the United States Senate, can make a 
difference by partnering with the fire service to give America's 
domestic defenders the tools they need to help fight this new war.
    One of the largest problems faced by America's volunteer fire 
service is funding. Many volunteer fire departments struggle to provide 
their members with adequate protective clothing, safety devices and 
training to protect their communities, as mandated by regulations and 
standards. These fire companies, in towns across America, are being 
asked to respond to emergency calls involving hazardous materials, 
structural fire suppression, search and rescue, natural disasters, 
wildland fires, emergency medical services, and terrorism.
    Many of these emergencies occur at Federal facilities and buildings 
and on Federal lands. In addition, these incidents can damage America's 
critical infrastructure, including our interstate highways, railroads, 
bridges, tunnels, financial centers, power plants, refineries, and 
chemical manufacturing and storage facilities. We as a fire service are 
sworn to protect these critical facilities and infrastructure.
    In these difficult times, while volunteer fire departments are 
already struggling to handle their own needs and finances, they are now 
forced to provide more services. Often, local governments are unable to 
afford the extensive training and specialized equipment that these 
activities require.
    The funding problems in America's volunteer fire service are not 
just limited to rural areas. As suburbs continue to grow, so does the 
burden on the local fire and EMS department. Even though many of these 
departments have the essentials, they are unable to gain access to new 
technologies. At no other time have advances been greater in equipment 
to protect them and make their jobs safer. Yet because the newer 
technology is so expensive, many volunteer fire departments are forced 
to forgo the purchase of the new technology or use outdated equipment.
    Long before the terrorist attacks of September 11, the national 
fire service organizations began working together to enhance readiness 
and increase funding levels for programs related to America's fire 
departments. Many Members of Congress have been with us since day one 
and have fought hard for improvement in the fire service. 
Unfortunately, it has taken a horrible tragedy for all of America to 
fully appreciate the risks our firefighters and EMS personnel take on a 
daily basis and the level to which they need to be prepared.
    The following items are some of the needs of America's fire 
service:
    First and foremost, we urge Congress to fully fund the Federal 
Emergency Management Agency (FEMA) Assistance to Firefighters Grant 
Program. This direct grant program has proved to be the most effective 
program to date in providing local volunteer and career fire 
departments not only with the tools they need to perform their day-to-
day duties, but it has also enhanced their ability to respond to large 
disasters as well.
    In 2000, Congress took a giant step in addressing the needs of 
America's fire service by creating this grant program and funding it at 
the $100 million level. Every fire department across the country was 
eligible for funding for safety and firefighting equipment, apparatus, 
training, prevention, and wellness and fitness programs. In the first 
year of the program, the U.S. Fire Administration (USFA) and FEMA 
received 31,295 grant applications from 18,915 fire departments 
totaling $2.99 billion in requests. In the end, USFA/FEMA awarded 1,855 
competitive grants to local fire departments, including 1,375 to 
volunteer and combination fire departments. In addition, 1,379 grants 
totaling $55,377,798 were awarded in communities with populations below 
20,000 people. Many of these were rural volunteer fire departments that 
struggle the most to provide their members with adequate protective 
gear, safety devices and training to protect their communities.
    Thanks to your leadership, Madam Chairman, and the support of your 
colleagues, the funding for the program was increased to a total of 
$360 million in fiscal year 2002. This increase in funding has allowed 
FEMA to add fire department based emergency medical services (EMS) as 
an eligible category this year. EMS calls continue to be the fastest 
growing burden on local fire departments and these new grants will help 
to ease that burden. Late last year, Congress also passed a 
reauthorization of the FEMA Assistance to Firefighters Grant Program 
for $900 million for each of the fiscal years 2002 through 2004. We 
respectfully request that Congress fully fund this program at the $900 
million level in fiscal year 2003.
    An increase in funding for the program will allow more departments 
to obtain the firefighting and safety equipment, training, and vehicles 
they so desperately need to do their jobs. It would also allow FEMA to 
continue to expand the grant categories the program offers to include 
fire department construction and modification, as well as grants for 
recruitment and retention initiatives.
    Terrorism and hazardous materials response training and equipment 
are of vital importance to America's fire service. Even the best-
prepared localities lack adequate resources to respond to the full 
range of terrorist threats this country faces. Many jurisdictions, 
especially those in rural and suburban areas protected by volunteers, 
have little or no capability to respond to terrorist attacks using 
weapons of mass destruction.
    In the President's budget, the Administration has outlined plans 
for a new First Responder Initiative, which proposes to spend $3.5 
billion in fiscal year 2003 to dramatically enhance the homeland 
security response capabilities of America's local fire, EMS, and police 
departments. This proposed program, which would be administered through 
FEMA, will allocate approximately $105 million for planning, $2 billion 
for equipment, $1.1 billion for training, and $245 million for 
exercises. The National Volunteer Fire Council fully supports this 
program and we ask Congress to do the same.
    However, although we understand that some small fire departments 
are better served through structured training from State training 
organizations, we are concerned about the possibility that a large 
portion of this new funding for equipment and training will get bogged 
down in State agencies and will not get down to the local first 
responders. We look forward to working with the Congress and FEMA to 
ensure that this program reaches needy departments. The efficient 
administration of the Assistance to Firefighters Grant Program could 
well serve as a model for distributing these funds.
    In addition, although we understand the special needs and concerns 
of America's large metropolitan areas, Congress and FEMA cannot forget 
smaller communities, whose fire, rescue and EMS personnel also need the 
basic training and equipment to recognize and respond to these 
incidents. While these communities may not seem to be prime terrorist 
targets, it is this very perception that makes them especially 
vulnerable.
    Another critical need in America's volunteer fire service is the 
recruitment and retention of volunteer personnel. Over the past 20 
years the volunteer fire service has seen its ranks decrease by nearly 
15 percent. Major factors contributing to the problem of recruiting and 
retaining volunteers include but are not limited to constant 
fundraising demands, increase in emergency calls, more rigorous 
training standards, and people working further away from the 
communities in which they live.
    In the President's State of the Union address last week, he 
encouraged all Americans to commit to service of their neighbors and 
their Nation by becoming volunteers. He also laid out a plan to create 
a new USA Freedom Corps, which will include a newly created Citizen 
Corps, along with the existing AmeriCorps, Senior Corps, and Peace 
Corps programs. The programs will work with local officials and 
community groups to offer expanded volunteer opportunities for 
Americans at home and abroad.
    The Citizen Corps would further utilize volunteers to identify 
threats and respond to emergencies, including much-feared biological or 
chemical attacks. The Citizen Corps will enable Americans to volunteer 
to participate directly in homeland security efforts in their own 
communities. Community-based Citizen Corps Councils will help drive 
local involvement in Citizen Corps, developing community action plans, 
assessing possible threats, identifying local resources and 
coordinating other Citizen Corps programs. These Councils will include 
leaders from law enforcement, fire and emergency medical services, 
businesses and other community-based institutions.
    We understand that the Federal Emergency Management Agency will 
coordinate the Citizen Corps effort and the Bush Administration has 
proposed more than $230 million in funding in their fiscal year 2003 
budget. The NVFC and the volunteer fire service looks forward to 
playing a large role in this exciting new initiative and we urge 
Congress to support it.
    When I began my testimony today, I stated that the volunteer fire 
service is in need of your assistance and that you, as Members of 
Congress, could make a difference with the necessary funding. I hope 
that I have painted a picture that illustrates that the need is real, 
that the money does go a long way, and that the continued support of 
the fire service by Congress is indeed a national concern.
    Madam Chairman, I thank you for your time and your attention to the 
views of America's fire service, and I would be happy to answer any 
questions you may have.

    Senator Mikulski. Thank you very much. That was all 
excellent, outstanding testimony, and exactly kind of the 
navigational chart we need to move ahead.
    Senator Bond, I know you have a caucus meeting. Why do I 
not turn to you and then I will do the wrap-up questions.

                SUPPORT OF BASIC FIREFIGHTING EQUIPMENT

    Senator Bond. Thank you very much, Madam Chair. I will be 
brief. I think we have so many good things to work on here, we 
are going to need to continue to have your input.
    Mr. Schaitberger, I was really impressed by the facts and 
the figures you gave us about the declining of the inadequate 
support of basic firefighting equipment. Frankly, I would hope 
that your message is heard by the citizens of St. Louis County 
and the citizens of Baltimore, that there has to be a renewed 
emphasis on the local support of firefighting. There is no way 
that the Federal Government is going to pick up these expenses, 
and I do not think anybody wants to have firefighting 
controlled by the Federal Government.
    But having said that, we are firmly committed and we know 
that this committee is going to provide the maximum support 
that we can, the fire grant and all the other programs, because 
they ought to be in addition to what the local governments 
ought to do.
    One of the things that worries me, from what you say, is 
that if we triple the fire grants, there may be cutbacks. What 
do you suggest we do to make sure that what we provide from the 
Federal Government does not supplant or excuse the local 
governments from making their essential contributions to the 
basic system?
    Mr. Schaitberger. I think the experience with the first 
FIRE Act grants is a great example of how it can work. That 
money went directly to fire departments, and the way the act is 
structured, the way the regulations are provided helped to 
ensure that the money really went to the departments. That is 
our biggest concern. We have seen a lot of money in this 
Federal Government go to a lot of State and local agencies and 
quite often the funds do not get down to the program level 
where they are intended. That is, quite frankly, some of my 
great concern with our homeland defense as at least I am 
reading some of the very general descriptions of those funds.
    So, my suggestion is straightforward. You write it and 
design it to make sure that it goes to the departments.
    Senator Bond. And I think we probably will continue to have 
a maintenance of effort requirement because we are demanding 
more.
    Senator Mikulski. It is in addition to, not in lieu of.

                     RESPONSE TO TERRORIST ATTACKS

    Senator Bond. Yes, the terrorism and the other things 
require a much greater response, and we cannot tolerate the 
Federal funds going in to enhance your capabilities while 
lessening the local commitment.
    I might turn to Chief Buckman. As you mentioned, we have 
provided $360 million this year but now allow some of that 
funding for training and equipment to respond to the terrorism 
incident. What is your view on how much of the funds should be 
used to build the capacity of fire departments to respond to 
terrorist acts? Several scenarios have been mentioned in the 
testimony. Should that be targeted towards terrorist attacks 
and perhaps providing radiation detection equipment? The dirty 
bomb scenario is a possible use. What kind of criteria would 
you suggest?
    Mr. Buckman. Whatever percentage I say would be wrong 
because I have not done the threat assessment, but I do believe 
that FEMA either has or is in the process of doing a threat 
assessment and what the local responders' capabilities are. I 
would say once we have done that and completed that threat 
assessment, then we can determine a percentage of what that new 
money might go for as it relates to responding to terrorism.
    Senator Bond. Chief Stittleburg, I have seen in your 
background that in your spare time you practice law. So, as a 
fellow recovering lawyer, let me ask a legal related question.

                  LIABILITY OF DONATED FIRE EQUIPMENT

    One of the things that we have heard from a number of 
areas, particularly where volunteer fire departments need 
equipment and they seek donations, many corporations, many 
businesses that have equipment that they might donate are 
concerned about the possible liability that would ensue if they 
donated equipment. Obviously, nobody is going to forgive an 
intentional or willful turnover of equipment, but if there is 
equipment that is being phased out in businesses, everybody 
thinks it is good, it would be helpful for the fire 
departments, volunteer and perhaps even career fire 
departments, to get it, is there a liability issue that we 
ought to address to make it easier to get equipment into the 
hands of fire departments?
    Mr. Stittleburg. Well, Senator, we certainly view it that 
way and in fact have supported legislation that would grant 
immunity in those sorts of situations to the donor for 
precisely that reason, to encourage the passing on of 
equipment, though used still serviceable, to those that are 
more needy. That has certainly been, in fact, a priority piece 
of legislation with us for some time.
    Senator Bond. Well, Madam Chair, we will have some more 
questions for the record. I appreciate your time and the time 
of our witnesses, and I thank both panels for some very 
compelling testimony and laying the groundwork for a lot of 
effort that we are going to have to put in. We thank you. We 
thank your members and your participants for all you do. We are 
going to be coming to the rescue of our under-resourced fire 
and first responder communities.
    Senator Mikulski. Thank you very much, Senator Bond. I 
think what is clearly emerging here are a couple of principles, 
and I will go to my questions.

                           FIRE GRANT PROGRAM

    First of all, I think what we are all clear about is what 
we want to be able to do to our first responders is to help 
them become all-hazard responders. So, in our own hometown of 
Baltimore where we have many chemical plants, whether it was 
caused by an accident or whether it was caused by a malevolent 
intent, the response is the same. While we figure out who did 
it or why it happened, your response has to be the same. So, we 
need to have you as all-hazard responders.
    The second is keep local control and not go through 
trickle-down bureaucracies and coordinators of the 
coordinators. Therefore, there should be direct funding to the 
fire departments themselves, and also that should be in 
addition to not in lieu of local funding.
    And third, really do not reinvent the wheel. We have a 
couple of basic programs that even now while we are sorting out 
what does the President mean, how does the President want to do 
it in this very condensed appropriations year because we have 
to be done by October 4, and we want to be done with our bill 
really in June.
    Senator Bond. June.
    Senator Mikulski. It is like a little echo chamber here.
    If we really focus on doing the appropriate funding level 
for the Fire Grant program where everybody is learning how to 
use it and also the urban search and rescue, we will really 
have created a momentum, knowing that whatever we do this year 
is not the only thing we are going to do or the only way we are 
going to do it. But we have got to keep the momentum going and 
get those resources now.
    Am I correct in saying that is really your core 
recommendations and to stay the course?
    Harold, in many ways you represent big city/urban. You 
represent a lot more than that, but really the big cities that 
are often the biggest target of threat, and then the suburbs 
come in doing the backup like Mr. Morris talked about. What do 
you think is the best way to really help these urban fire 
departments? Stick with the Fire Grant program for now.
    Mr. Schaitberger. Right now the Fire Grant program I think 
works great. We just have to make sure, particularly in the big 
cities, that we do not allow the mayors, city councils to back 
in the grant by, in effect, reducing their initial obligation 
to the department which they were responsible for or which they 
intended to provide and you simply are allowing the Federal 
dollars to come in the front door of the department while the 
city dollars are going out the back door. There has to be 
assurance that their commitment to their fire departments 
fiscally are maintained or growing and then the Federal dollars 
added to it.
    Senator Mikulski. So, that would be the maintenance of 
effort that Senator Bond talked about.
    Mr. Schaitberger. Yes.
    Senator Mikulski. So, again, our effort becomes in addition 
to not in lieu of.
    Mr. Schaitberger. Correct.
    Senator Mikulski. Yes. I think that is really an excellent 
recommendation.
    Did you know in the Fire Grant program Baltimore City got 
$300,000?
    Mr. Schaitberger. I did. That is not a surprise, Madam 
Chair.
    Senator Mikulski. No, no, no. It was all competitive. I 
want you to know this. I want to also say this because I am 
going to really need the help of the leadership. Senator Bond 
and I, my counterparts in the House, Congressman Walsh and 
Congressman Mollohan, really said no earmarking. No earmarking. 
This had to be based on, first of all, the criteria of the 
bill, peer review, and evaluation. Essentially our job is to 
get the money to the Fire Grant program but not to designate 
it. I am really going to need your help to resist your fire 
departments requesting earmarks because we will lose control 
over it.
    And I love earmarks. I have been doing a lot of good with 
earmarks.
    But really, I like the way this Fire Grant program worked. 
The peer review. Again, you talked about that the firefighters 
were actually there. They knew how to evaluate it. I read the 
testimony where they were in tears about how threadbare 
equipment, fire departments could not be funded, and so on. So, 
please help me by keeping it peer-reviewed and then go for at 
least the $900 million. That would be an excellent approach.

             FUND RAISING EFFORTS OF LOCAL FIRE DEPARTMENTS

    Let me go to the fund raising of the volunteer fire 
departments. Could you tell me, is this a big deterrent in 
terms of the recruitment of volunteer firefighters? And if you 
could tell me how much time is spent by the volunteer 
firefighters? Mr. Stittleburg, maybe you could comment on this 
and Chief Buckman.
    Mr. Stittleburg. It is certainly a significant factor, 
Madam Chairlady, and it varies from department to department 
across the Nation because some departments draw more of their 
funds from the municipality. Some, on the other hand, are 
totally funded by their own fund rasing. But it certainly is in 
every instance a significant commitment of time.
    One of the things I think, to the volunteer sector, the 
grant program provides is literally buying time. That may seem 
to be inconsistent, but in addition to the value of the 
equipment that is purchased, which has its own utilitarian 
value, when we get the money from FEMA to buy that equipment, 
we literally have bought back time that would have been spent 
by us doing this fund raising. So, it has a double value to us 
beyond just the value of the equipment received. It also 
redeems our time to take the training which is now going to be 
targeted, for instance, toward terrorism and issues of this 
nature.
    I do not have a specific number I can give you, but I can 
tell you that it is not uncommon for it to be several hours per 
week frequently spent just on the fund raising activities.
    Senator Mikulski. Thank you. Interesting insights.
    Chief Buckman?
    Mr. Buckman. I would agree with Chief Stittleburg in that 
it is really difficult to quantify, but I would say this that 
it is probably at least one or two nights a week in many fire 
departments. But if you can imagine trying to raise $300,000 to 
buy a fire truck. How much time would that take? Whether you 
are selling raffles, chicken dinners, or doing bingo, how much 
time is that going to take? It is going to take a tremendous 
amount of time.
    The young people who join the volunteer fire departments 
today do not join to raise money. They join to make runs and 
help people. And that is where the conflict comes in in the 
volunteer fire service. The chief says we have got to raise 
money. The young volunteers say, I am not going to participate, 
but I want new equipment. So, that becomes a retention issue as 
well. Well, if I am not going to get new equipment, I am not 
going to volunteer anymore. So, we do need help with 
recruitment and retention, and we do need help with these funds 
through the FIRE Act.
    Senator Mikulski. I think that is excellent. What you were 
saying is if there is only so much time a person can give, and 
even if they are willing to do the fund raising, essentially 
the chicken dinners and the bingo calling--and in our State we 
have money wheels; other States do it differently--but you are 
either going to be at the fire hall on a Friday night raising 
money and your family is proud of you because you are a 
volunteer or you are going to be there on Friday night ready to 
answer a call. But you do not get any more time because of 
family and job. You just cannot. I think that is an excellent, 
excellent viewpoint.
    I think the liability issues for donated equipment--though 
as wonderful as donated equipment is and we appreciate it, we 
would never run a clothing drive for our Marines.
    Mr. Buckman. Thank you, Madam Chair. You are exactly right.
    Senator Mikulski. In other words, I could see some 
additional things like computers, the kinds of things 
particularly like technology, if they had those palm machines 
that they are ready to turn over so you could better 
communicate among yourselves. But we are not running used 
clothing drives or used car sales for our fire departments. 
This is not a charity operation. We do not want you to have to 
forage for funds, which is essentially what you are doing. And 
we need you to have what is the most protective gear available 
at the time. Best available technology, best available gear 
that we can then help you be able to afford to buy.
    And what does it mean? I am just going to come back and 
close out by this. I believe the better equipped fire 
departments are, the lower home ownership insurance rates will 
be. In other words, the more we can do fire prevention--we have 
not even talked about all your education, the way you go into 
schools, the way you are often the ``officer friendlies'' of 
fighting<plus-minus> fires, the way you go around to make sure 
everybody has got smoke detectors. We are talking about 
terrorism here, but often your first job is to prevent fires in 
local communities and be able to respond to them. This really 
takes a tremendous effort.
    I have lots more questions.
    We want to think this through. I like President Bush's 
commitment. We appreciate that. We appreciate that he actually 
put it in his budget. Now we have to sort out how he wants to 
do it organizationally, but while we are sorting that out--and 
there are going to be turf issues and Justice does not want to 
do this and all of those things--you should not have to worry 
about that. Let us worry about it. Give us your advice and 
commentary. We might be able to get it done, but for this year, 
to make a really firm commitment to full funding as a minimum--
minimum--to our Fire Grant program and keeping politics out of 
it, and at the same time really do our maximization of our 
urban search and rescue, I think then we will have done a very 
good job this year, knowing next year we have another good job 
to do.
    Mr. Schaitberger. It sounds like music to my ears.
    Mr. Stittleburg. Madam Chairman, I can think of little that 
would make me happier.

                         CONCLUSION OF HEARING

    Senator Mikulski. Well, let me just say to each and every 
one of the people that you represent at this table, thank you. 
God bless you and God bless America.
    The subcommittee stands recessed until the call of the 
Chair.
    [Whereupon, at 1:06 p.m., Tuesday, February 5, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
